<html>
<title> - HELPING STUDENTS SUCCEED THROUGH THE POWER OF SCHOOL CHOICE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





      HELPING STUDENTS SUCCEED THROUGH THE POWER OF SCHOOL CHOICE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, FEBRUARY 2, 2017

                               __________

                            Serial No. 115-2

                               __________

  Printed for the use of the Committee on Education and the Workforce



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-827 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Steve Russell, Oklahoma              Mark Takano, California
Elise Stefanik, New York             Alma S. Adams, North Carolina
Rick W. Allen, Georgia               Mark DeSaulnier, California
Jason Lewis, Minnesota               Donald Norcross, New Jersey
Francis Rooney, Florida              Lisa Blunt Rochester, Delaware
Paul Mitchell, Michigan              Raja Krishnamoorthi, Illinois
Tom Garrett, Jr., Virginia           Carol Shea-Porter, New Hampshire
Lloyd K. Smucker, Pennsylvania       Adriano Espaillat, New York
A. Drew Ferguson, IV, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

Duncan Hunter, California            Jared Polis, Colorado
David P. Roe, Tennessee                Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Raul M. Grijalva, Arizona
Luke Messer, Indiana                 Marcia L. Fudge, Ohio
David Brat, Virginia                 Suzanne Bonamici, Oregon
Tom Garrett, Jr., Virginia           Susan A. Davis, California
                                     Frederica S. Wilson, Florida
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 2, 2017.................................     1

Statement of Members:
    Polis, Hon. Jared, Ranking Member, Subcommittee on Early 
      Childhood, Elementary, and Secondary Education.............     4
        Prepared statement of....................................     7
    Rokita, Hon. Todd, Chairman, Subcommittee on Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Carter, Ms. Almo J., Parent..................................    15
        Prepared statement of....................................    17
    Kubacki, Mr. Kevin, Chief Executive Director, The 
      Neighborhood Charter Network...............................    21
        Prepared statement of....................................    23
    Cherry, Mrs. Nina, Parent....................................    25
        Prepared statement of....................................    27
    Williams, Mr. Michael L., Manager, Former Commissioner of 
      Education, Texas Education Agency..........................     9
        Prepared statement of....................................    11

Additional Submissions:
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut:
        Article: Educational Investment That Works And Is 
          Affordable.............................................    98
    Mr. Polis:
        Letter dated March 30, 2001, from the United States 
          Department of Education................................   104
        Letter dated June 27, 2003, from the United States 
          Department of Education................................   107
        Letter dated July 1, 2003, from the United States 
          Department of Education................................   110
        Letter dated June 27, 2005, from the United States 
          Department of Education................................   113
        Letter dated August 22, 2007, from the United States 
          Department of Education................................   116
        Letter dated August 29, 2007, from the United States 
          Department of Education................................   118
    Chairman Rokita:
        Estimated Charter Public School Enrollment, 2016-17......   122
        Letter dated November 7, 2012, from the United States 
          Department of Education................................   127
        Letter dated March 30, 2001, from the United States 
          Department of Education................................   129
        Slide: #SchoolChoice by the Numbers......................   150
    Scott, Hon. Robert C. ``Bobby'', a Representative in Congress 
      from the State of Virginia:
        Letter February 1, 2017, from National PTA...............    31
        Letter February 1, 2017, from National School Boards 
          Association (NSBA).....................................    34
        Letter February 1, 2017, from American Federation of 
          Teachers (AFT).........................................    66
        Letter February 1, 2017, from Texas Association of School 
          Boards (TASB)..........................................    68
        Letter February 1, 2017, from National Education 
          Association (NEA)......................................    70
        Letter February 1, 2017, from National Coalition for 
          Public Education (NCPE)................................    72
        Questions submitted for the record.......................   152
    Bonamici, Hon. Suzanne, a Representative in Congress from the 
      State of Oregon to:
        Mr. Kubacki..............................................   155
        Mr. Williams.............................................   157
    Response to questions submitted:
        Mrs. Cherry..............................................   158
        Mr. Kubacki..............................................   160
        Mr. Williams.............................................   162

 
      HELPING STUDENTS SUCCEED THROUGH THE POWER OF SCHOOL CHOICE

                              ----------                              


                       Thursday, February 2, 2017

                       House of Representatives,

                    Subcommittee on Early Childhood,

                  Elementary, and Secondary Education,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:11 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Roe, Messer, Brat, 
Garrett, Polis, Grijalva, Fudge, Bonamici, and Davis.
    Also Present: Representatives Foxx, Allen, Takano, Adams, 
Scott, and Courtney.
    Staff Present: Courtney Butcher, Director of Member 
Services and Coalitions; Tyler Hernandez, Deputy Communications 
Director; Amy Raaf Jones, Director of Education and Human 
Resources Policy; Nancy Locke, Chief Clerk; Dominique McKay, 
Deputy Press Secretary; James Mullen, Director of Information 
Technology; Krisann Pearce, General Counsel; Brandon Renz, 
Staff Director; Mandy Schaumburg, Education Deputy Director and 
Senior Counsel; Alissa Strawcutter, Deputy Clerk; Leslie Tatum, 
Professional Staff Member; Brad Thomas, Senior Education Policy 
Advisor; Sheariah Yousefi, Legislative Assistant; Tylease Alli, 
Minority Clerk/Intern and Fellow Coordinator; Austin Barbera, 
Minority Press Assistant; Jacque Chevalier, Minority Deputy 
Education Policy Director; Denise Forte, Minority Staff 
Director; Mishawn Freeman, Minority Staff Assistant; Doug 
Hodum, Minority Education Policy Fellow; Kimberly Knackstedt, 
Minority Disability Policy Advisor; and Aneesh Sahni, Minority 
Education Policy Fellow.
    Chairman Rokita. Good morning. A quorum being present the 
subcommittee on Early Childhood, Elementary, and Secondary 
Education will come to order. Welcome to the first hearing of 
the subcommittee for the 115th Congress. I thank everyone for 
their cooperation. We are starting a little bit late, only to 
accommodate the prayer breakfast held today in our Nation's 
Capital. I also want to extend a special welcome to our new 
ranking member, my friend, Representative Jared Polis of 
Colorado. I look forward to working together in the weeks and 
months ahead. I suspect we will continue to have our 
differences, but there is no doubt we share the same goal of 
helping to ensure every child is prepared to succeed in life. 
Congratulations and welcome.
    Mr. Polis. Thank you.
    Chairman Rokita. In recent years, this subcommittee has 
helped advance positive legislative solutions for America's 
students and families. At the center of those efforts has 
always been the desire to make sure every child has the 
opportunity to receive an excellent education. That is a mantra 
we repeat often around here, and for good reason, it is a 
critical goal, and it guides much of the work we do in this 
subcommittee. And it is with that goal in mind that we enacted 
legislation to put K-12 education back in the hands of those 
who know best what students need, their parents, and State and 
local leaders.
    We also made significant progress advancing reforms to 
improve career and technical education, child nutrition 
assistance, and student privacy. Because there is still a lot 
of work to do before we reach our shared goal, we will continue 
working together to deliver the solutions our Nation's children 
and families deserve and need. We are here today to discuss one 
of those solutions: school choice.
    Across the country, efforts are underway to empower parents 
with more options when it comes to their children's education. 
My home State of Indiana, for example, operates a scholarship 
program to help children from low-income families, children in 
failing schools, and children with special needs so, that they 
receive the high-quality education necessary to succeed, both 
in the classroom and in life. The State also provides tax 
credits to individuals and employers who donate to nonprofit 
organizations that award scholarships to these students. And as 
I am sure our witness, Mr. Kubacki, will explain, Indiana's 
charter school community has been helping students succeed for 
years now.
    Because these and similar efforts nationwide -- similar 
efforts nationwide, charter schools are currently serving close 
to 3 million students, and nearly 400,000 kids are benefiting 
from a private school choice program, more than ever before, as 
we can see from the chart above.
    While these numbers will help illustrate the growing 
popularity of school choice, they don't fully capture the hope 
and opportunity school choice provides, in my opinion. At a 
committee hearing last year, we heard from a truly inspiring 
young woman named Denisha Merriweather. Explaining how school 
choice changed her life, Denisha said, quote, ``The cycle of 
poverty is ending in my family, thanks to the Florida tax 
credit scholarship. So many opportunities have been given to 
me, and I want to create the same for other children just like 
me,'' end quote.
    ``The cycle of poverty is ending in my family.'' Those are 
pretty powerful words, and Denisha's is a powerful story. Not 
only did school choice provide her life-changing opportunities, 
but those opportunities have inspired her to help change the 
lives of others. Already, the first in her family to graduate 
from high school and college, Denisha is now working to become 
the first in her family to receive a graduate degree. She has 
committed to using that degree to advocate for expanding 
educational opportunities to other disadvantaged children and 
families.
    Denisha is just one of the countless individuals whose 
lives have been changed because their families had a choice. 
With a new Congress and new administration, we now have an 
opportunity to extend the power of school choice to other 
families as well. We will look for opportunities to advance 
school choice and continue our work to improve traditional 
public schools. But make no mistake, these two efforts do go 
hand in hand. We will never turn our backs on the millions of 
students who attend our Nation's public schools, but we also 
want to ensure parents have the opportunity to choose the best 
school for their children. And this won't be easy.
    In fact, there is already opposition building against the 
idea of empowering parents with more choices. In many ways, 
this explains the smear campaign against Betsy DeVos, the 
President's nominee to serve as Secretary of Education. She has 
shown her commitment to all children through her words, and 
more importantly, through her actions. Mrs. DeVos has dedicated 
her life to helping some of our Nation's most disadvantaged 
students. Because she stands firmly for parental choice, she is 
being attacked, maligned across the country.
    No one on this committee would ever leave their children 
trapped in a failing school. I challenge anyone on this 
committee to say they would. Yet, some would deny other parents 
their very right to do what is best for their children. If we 
are serious about improving K-12 education, we have to demand 
better. The Every Student Succeeds Act is the perfect example 
of what we can accomplish together when we put the interests of 
students above politics -- when we focus on policies, not press 
releases. I remain optimistic that this Congress, we will 
choose students and advance policies to ensure every child 
receives an excellent education.
    With that, I now recognize Ranking Member Polis.
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    Good morning and welcome to the first hearing of the Subcommittee 
on Early Childhood, Elementary, and Secondary Education for the 115th 
Congress. Allow me to extend a special welcome to our new ranking 
member, Representative Jared Polis. I look forward to working together 
in the weeks and months ahead. I suspect we will continue to have our 
differences, but there's no doubt we share the same goal of helping to 
ensure every child is prepared to succeed in life. Congratulations and 
welcome, Ranking Member Polis.
    In recent years, this subcommittee has helped advance positive, 
legislative solutions for America's students and families. At the 
center of those efforts has always been the desire to make sure every 
child has the opportunity to receive an excellent education. That's a 
mantra we repeat often around here, and for good reason. It's a 
critical goal, and it guides much of the work we do on this 
subcommittee.
    It is with that goal in mind that we enacted legislation to put K-
12 education back in the hands of those who know best what students 
need--parents and state and local leaders. We also made significant 
progress advancing reforms to improve career and technical education, 
child nutrition assistance, and student privacy. Because there is still 
a lot of work to do before we reach our shared goal, we will continue 
working together to deliver the solutions our nation's children and 
families deserve. We're here today to discuss one of those solutions: 
school choice.
    Across the country, efforts are underway to empower parents with 
more options when it comes to their children's education. My home state 
of Indiana, for example, operates a scholarship program to help 
children from low-income families, children in failing schools, or 
children with special needs receive the high-quality education 
necessary to succeed both in the classroom and in life. The state also 
provides tax credits to individuals and employers who donate to 
nonprofit organizations that award scholarships to students. And as I'm 
sure our witness Mr. Kubacki will explain, Indiana's charter school 
community has been helping students succeed for years.
    Because of these and similar efforts nationwide, charter schools 
are currently serving close to 3 million students, and nearly 400,000 
kids are benefitting from a private school choice program - more than 
ever before. While these numbers help illustrate the growing popularity 
of school choice, they don't fully capture the hope and opportunity 
school choice provides.
    At a committee hearing last year, we heard from a truly inspiring 
young woman named Denisha Merriweather. Explaining how school choice 
changed her life, Denisha said:
    ``The cycle of poverty is ending in my family, thanks to the 
Florida Tax Credit Scholarship. many opportunities have been given to 
me, and I want to create the same for other children just like me.''
    The cycle of poverty is ending in my family. Those are powerful 
words, and Denisha's is a powerful story. Not only did school choice 
provide her life-changing opportunities, but those opportunities have 
inspired her to help change the lives of others. Already the first in 
her family to graduate from high school and college, Denisha is now 
working to become the first in her family to receive a graduate degree. 
She is committed to using that degree to advocate for expanding 
educational opportunities to other disadvantaged children and families.
    Denisha is just one of countless individuals whose lives have been 
changed because their families had a choice. With a new Congress and a 
new administration, we now have an opportunity to extend the power of 
school choice to other families as well. We will look for opportunities 
to advance school choice and continue our work to improve traditional 
public schools.
    Make no mistake: These two efforts go hand in hand. We will never 
turn our backs on the millions of students who attend our nation's 
public schools, but we also want to ensure parents have the opportunity 
to choose the best school for their children.
    It won't be easy. In fact, there is already opposition building 
against the idea of empowering parents with more choices. In many ways, 
this explains the smear campaign against Betsy DeVos, the president's 
nominee to serve as Secretary of Education. She has shown her 
commitment to all children through her words, and more importantly, 
through her actions. Mrs. DeVos has dedicated her life to helping some 
of our nation's most disadvantaged students. Because she stands firmly 
for parental choice, she is being attacked and maligned across the 
country.
    No one on this committee would ever leave their child trapped in a 
failing school. No one. Yet, some would deny other parents the right to 
do what's best for their children. If we are serious about improving K-
12 education, we have to demand better. The Every Student Succeeds Act 
is the perfect example of what we can accomplish when we put the 
interests of students above politics. When we focus on policies--not 
press releases. I remain optimistic that this Congress will choose 
students and advance policies to ensure every child receives an 
excellent education.
    With that, I will now recognize the ranking member, Congressman 
Polis, for his opening remarks.
                                 ______
                                 
    Mr. Polis. I want to thank Chairman Rokita. And in 
particular, I wanted to thank him for delaying the opening of 
this committee as we have members, including myself, returning 
from the prayer breakfast. I know there will be many others 
joining us that are still on their way back.
    I applaud the topic of today's hearing. I am certainly a 
strong supporter of high quality public school choice. Choice 
is something that is a fundamental American value in a consumer 
society: we want to choose our clothes; we want to choose our 
food; we want to choose our schools to reflect our values and 
what we value. And before coming to Congress, I have experience 
in this sector, having founded two public charter schools, one 
for recent immigrants and English language learners, and 
another to meet the unique learning needs of homeless and at-
risk youth in transitional housing.
    Both of those schools, New America School and Academy of 
Urban Learning, meet the unique needs and challenges of 
students meeting them where they are, and provide a chance for 
them to be able to break the challenges they face, and defy 
expectations, and succeed and live the American Dream.
    I am proud of Colorado. I feel Colorado is an example of 
public school choice laws that work and how educational 
opportunities can be a tool for advancing equity and quality in 
our public education system. An example is Denver public 
schools, which was named the best large school district for 
choice in the country by Brookings Institution in 2015. The way 
Denver works really helps empower parents through a transparent 
and non-discriminatory enrollment process, meaningful 
partnerships between charter schools, innovation schools, 
district schools and strong community support.
    We have, among the different types of schools that serve 
children in this country, district-run public schools, public 
charter schools and independent schools. Of course, there is no 
single recipe for success. I can point to schools in any of 
those categories, public charter schools, district schools, 
independent schools, that I would do anything to avoid having 
my child of 5 attend, and I can point to schools in any of 
those categories, independent, district-run, and charter that I 
would be proud to send my child to.
    So clearly there is no silver bullet. We wish there were, 
that simply by having every school run by a district or having 
every school run as a charter, or having every school run 
independently will somehow make every school excellent. It 
doesn't work that way. There are different models, there are 
different advantages and disadvantages to both.
    The shortcoming with many of the school choice proposals 
that are being advanced currently are that they allow 
independent schools to maintain selective admission 
requirements. It requires students with disabilities to sign 
away their rights under the Individual with Disabilities Act, 
or IDEA, and withhold information from parents regarding 
student performance.
    For a market to work, it really relies on two things: under 
the laws of economics, it relies on perfect information, or as 
perfect information as you can have, a/k/a transparency, 
accountability, and it relies on rational choice. I think 
everybody would agree that we highly value that parents are 
always trying to make the best choices for their child. I don't 
think we doubt that. Where some of the choice proposals are 
problematic is they don't afford parents in communities the 
type of relevant information they need in terms of transparency 
into what is and isn't occurring, particularly on the 
independent school side. But that is a criticism that frankly, 
in some areas, has also been valid on the charter school side. 
I would add, in some areas, it is valid on the district side as 
well. Parents should be entitled to more information about how 
schools are doing.
    We have examples of programs that work and don't work. In 
Ohio, which has been noted for having a weak authorizing law 
for charter schools, there have been a number of instances of 
schools that have falsified attendance records. In Louisiana, 
low-quality curriculum and voucher-participating schools have 
produced bad results for students. In Wisconsin, there has been 
double-dipping in general education funds that have supported 
students that were already enrolled in private schools.
    So I hope that today's hearing makes clear to the American 
people that everybody supports and values choice. It's a 
question around what the parameters of choice are, and what 
that market, which needs to be designed to benefit students and 
families first, needs to look like.
    In this 1954 ruling in Brown v. Board of Education, the 
Supreme Court affirmed that education is necessary for personal 
and economic success; saying that ``State-funded education is a 
right that must be made available to all on equal terms.'' If 
we are truly committed to fulfilling the promise of Brown v. 
Board of Education for all of our children, regardless of not 
only race, but income, and ZIP Code, and language status and 
disability, we need to invest in making sure that schools serve 
all kids successfully.
    I join Chairman Rokita in commending this committee and 
this Congress in rewriting the Every Student Succeeds Act, 
ESSA. We look forward to engaging in the oversight of that work 
through this committee. I have seen, of course, Republicans and 
Democrats on this committee join with regard to expressing 
concern for civil rights. But unfortunately, many of us on my 
side of the aisle, myself included, fear that the Republican 
school choice proposals are a back door for undermining the 
civil rights protections that we wrote into ESSA, including 
those for students with learning disabilities.
    Under IDEA, students with disabilities are guaranteed a 
free and appropriate education. But the private school 
education programs that exist, where students are sent to 
independent schools, have no obligation to ESSA, and parents' 
surveys show that too many private schools require parents to 
fully or partially sign away their rights under IDEA. I would 
point that out in contrast to private placement that occurs 
through school districts with private providers where parents 
maintain those rights under IDEA.
    What we need are school choice programs that empower 
parents and students with transparency and the information they 
need and quality choices. Many of the Republican school choice 
proposals that have been presented before us offer false 
choices that could only exacerbate educational inequities by 
requiring that parents sign away their rights, stripping 
parents of their voice and undermining important civil rights 
for students.
    I wanted to address one final concern I have with school 
choice programs. As co-chair of the congressional lesbian, gay, 
bisexual, and transgender equality caucus, I have concerns 
about the rights of our gay and lesbian students in voucher 
programs. A 2013 study found that at least 115 private schools 
that participate in Georgia's voucher program have or promote 
anti-gay or anti-lesbian admission, scholarship, and discipline 
policies. Some voucher participating schools in Georgia, and I 
suspect throughout the Nation, have policies stating that a 
student can be expelled for identifying as gay or lesbian.
    Now our Nation was built on the principle of equality for 
all Americans, regardless of what people think of the way 
people choose to live their lives in our free society. Public 
schools, and that includes schools that are publicly funded, 
and if independent schools are going to be publicly funded, 
they would have to play by these rules, cannot discriminate and 
have to be a safe, welcoming, learning environment for all 
students, regardless of those kind of individual issues in 
their own lives, so their faith, or lack thereof, or their 
sexual orientation.
    Our Nation was built on the principle of equality for all 
Americans. And it is essential that we empower communities 
rather than promote policies that treat various Americans as 
second class citizens.
    I look forward to today's hearing from today's witnesses 
about how we can strengthen our public education system, rather 
than dismantle it. I thank you and I yield back the balance of 
my time.
    [The statement of Mr. Polis follows:]

Prepared Statement of Hon. Jared Polis, Ranking Member, Subcommittee on 
          Early Childhood, Elementary, and Secondary Education

    Thank you, Chairman Rokita, for hosting this morning's hearing on 
such an important topic. It's no secret that I'm a strong supporter of 
high-quality public school choice. Before coming to Congress, I founded 
two public charter schools. One school provides education for recent 
immigrants and English Language Learners, and another serves homeless 
and at-risk youth. Both of these schools are meeting the unique needs 
and challenges of its students, and providing a chance at the great 
public education that they deserve.
    Colorado is an example of how public school choice can be done 
well, and how it can be a valuable tool for advancing equity in our 
public school system. That's the school choice I know and the school 
choice I believe in. A great example is Denver Public Schools, which 
was named the best large school district for choice in the country by 
the Brookings Institution in 2015. Denver truly empowers parents 
through a transparent and non-discriminatory enrollment process, 
meaningful partnerships between charter and district schools, and 
strong community support.
    Unfortunately, not all public school choice is made equal. In a 
number of states, weak charter school laws undermine accountability and 
transparency, and for-profit corporations running charter schools put 
profits before students.
    Republican school choice proposals allow private schools to 
maintain selective admission requirements, require students with 
disabilities to sign away their rights under the Individuals with 
Disabilities Education Act (IDEA), and withhold information from 
parents regarding their student's performance.
    There are numerous examples of the failures of this type of system. 
In Michigan, 79 percent of charter schools are run by for-profit 
corporations, and they have some of the worst schools in the nation. In 
Ohio, a school falsified attendance records to receive additional 
taxpayer funding. In Louisiana, low-quality curriculum in voucher-
participating schools has produced dismal results for students. In 
Wisconsin, general education funds have been drained - largely to 
support students already enrolled in private schools. In Georgia, data 
shows that it is actually upper income families who benefit from the 
state's voucher program, meaning taxpayers are actually subsidizing 
private education for the wealthy.
    I hope that today's hearing makes clear to the American people that 
Republican school choice is not the type of choice that will achieve 
equity of educational opportunity for all children. In its 1954 ruling 
in Brown v. Board of Education, the Supreme Court affirmed that 
education is necessary for personal and economic success, stating that 
state-funded education is a right that must be made available to all on 
equal terms. If we are truly committed to fulfilling the promise of 
Brown for all of our children regardless of zip code, income, race, 
language status, or disability, we should invest in our public 
education system instead of siphoning public dollars away from public 
schools for unaccountable private schools.
    Just last year, this Committee worked in a bipartisan fashion to 
write the Every Student Succeeds Act. Under ESSA, public schools are 
required to transparently report the performance of vulnerable students 
and address issues when schools are not appropriately serving these 
students. I've seen firsthand Republicans' on this committee's concern 
for civil rights. But unfortunately, Republican school choice is a 
backdoor to undermining those civil rights protections we wrote into 
ESSA. Under IDEA, students with disabilities are guaranteed a free and 
appropriate education. But private school voucher programs have no 
obligation to ESSA, and parent surveys show that too many private 
schools require parents to fully or partially sign away their rights 
under IDEA. I deeply believe that all students with disabilities 
deserve the protections and supports to provide them with an equal 
opportunity at a high-quality education as any other student.
    Finally, as co-chair of the Congressional LGBT Equality Caucus, I 
have deep concerns about the rights of our LGBT students in voucher 
programs. A 2013 study found that at least 115 private schools 
participating in Georgia's voucher program have or promote anti-LGBT 
admission, scholarship, and discipline policies. Some voucher 
participating schools in Georgia, and I suspect throughout the nation, 
have policies stating that a student can be expelled for identifying as 
LGBT or coming out as LGBT. Our nation was built on the principle of 
equality for all Americans--including racial minorities, individuals 
with disabilities, and the LGBT community. It is essential that we 
further empower these communities rather than promote policies that 
treat them as second-class citizens.
    Republican school choice does not empower parents or students; it 
is a false choice that only further exacerbates educational inequities, 
strips parents of their voice, and undermines important civil rights 
protections for parents and students.
    I look forward to hearing from today's witnesses about how 
meaningful choice that supports parents and students can be used to 
strengthen our system of public education, not dismantle it. Thank you, 
and I yield back.
                                 ______
                                 
    Chairman Rokita. I thank the gentleman.
    Pursuant to committee Rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing to 
be submitted for the official hearing record.
    I will now turn to the introduction of our distinguished 
witnesses. First we have Mr. Michael Williams. He is a former 
education commissioner with the Texas Education Agency. Prior 
to this position, Mr. Williams served as the assistant 
Secretary of Education for Civil Rights with the U.S. 
Department of Education under President George H.W. Bush. 
Currently, Mr. Williams serves as the distinguished leader in 
residence at the University of North Texas at Dallas. Welcome, 
sir.
    Ms. Almo Carter, a mother living and working in Washington, 
D.C. Mrs. Carter's son, who has Fragile X Syndrome, attends a 
D.C. public school and receives services through the 
Individuals With Disabilities Education Act, IDEA. Ms. Carter 
served as the former chair of the interagency coordinating 
council, which is an advisory panel required under the 
Individuals with Disabilities Education Act. Welcome, Ms. 
Carter.
    Mr. Kevin Kubacki, serves as executive director of the 
Neighborhood Charter Network, a grassroots organization that 
manages two public charter schools in Indianapolis, in the 
great State of Indiana. Enlace Academy and the Kindezi Academy. 
Prior to this position, Mr. Kubacki served as a school leader 
with Enlace Academy and as a teacher, coordinator, and coach 
with the Indianapolis-based schools, Cathedral High School and 
St. Matthews School. Welcome, sir, I appreciate your 
leadership.
    And finally, Mrs. Nina Cherry is the mother of four 
children who attend Tampa Bay Christian Academy in Tampa, 
Florida. Prior to attending Tampa Bay Christian Academy, the 
Cherry children attended an A-rated public school in Pasco 
County but had to relocate. In order to provide the best 
education for their children, Mr. and Mrs. Cherry enrolled them 
in Tampa Bay Christian Academy with assistance from the Florida 
tax credit scholarship that I mentioned during my opening 
remarks. As a result of the excellent education received at 
Tampa Bay Christian Academy, all four of the Cherry children 
are on the honor roll and excelling. Welcome, ma'am.
    I will now ask the witnesses to raise your right-hand.
    Seeing their hands raised, do you solemnly swear or affirm 
that the testimony you are about to give will be the truth, the 
whole truth and nothing but the truth?
    Chairman Rokita. Please let the record reflect that all 
witnesses answered in the affirmative.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system. It is pretty self-
explanatory. And I outline it only in addition for you as a 
reminder to those of us up here. When you begin, the light in 
front of you will be green; when 1 minute is left, it will be 
yellow; and when time has expired, the light will, of course, 
turn red, at which time you should have wrapped up your 
remarks. I will hold the members to that same standard, 5 
minutes each for their questions.
    And we will start with you, Mr. Williams. You are 
recognized now for 5 minutes for your testimony.

   TESTIMONY OF MICHAEL L. WILLIAMS, FORMER COMMISSIONER OF 
               EDUCATION, TEXAS EDUCATION AGENCY

    Mr. Williams. Good morning, Chairman Rokita, Ranking Member 
Polis, and I see Chairwoman Foxx and members of the committee 
on Education and the Workforce. Thank you for the opportunity 
to visit with you today. I am Michael Williams, a lifetime 
proponent, beneficiary and servant of America's public schools. 
I am the proud son of two public school teachers. My mother 
retired after 40 years, and worked as a high school counselor. 
My father was a math teacher and football and track coach, and 
retired after 43 years with the honor of being inducted into 
the Texas High School Coaches Hall of Fame.
    I graduated from public schools in Midland, Texas. I'm here 
to tell you something that has become clear to me during my 
years of work in education. School choice, including private 
school choice, is not a threat to strong public schools. 
Parents are a child's first and most important educators, they 
are also a child's best advocates. Allowing parents to choose 
the best education options to meet their child's unique needs 
is good for our education system, and our schools. But most 
important, it is good for our children. That is why the 
education system ought to empower parents to make education 
choices based on what they know their children need to be 
successful.
    My home State of Texas has the second largest K-12 student 
enrollment with over 4.29 million students, and has experienced 
an increase of 1.2 million students over the past 15 years. On 
most majors, graduation rates, NAEP scores, SAT, ACT scores, AP 
participation and scores, Texas student performance is on the 
rise, especially when you compare subpopulations from State to 
State.
    However, deficient student outcomes persist and the 
academic achievement gap remains extremely stark. Only 49 
percent of all white students performed at proficient or above 
on the NAEP 2013 8th grade reading. Academic outcomes are more 
dismal for Hispanic and black students, only 20 and 17 percent 
of whom performed at proficient or above. Texas desperately 
needs high quality seats for these students. And private school 
choice could help serve them without significantly impacting 
public school enrollment.
    Despite what you may have heard, private school choice is 
not at the expense of public school students. In fact, 31 of 33 
empirical studies found that choice improved the performance of 
neighboring traditional public schools. The reality is that 
choice encourages public schools to be more responsive to 
students' needs and parent's preferences.
    In my work, I have come to understand how truly unique each 
State's educational landscape is. As commissioner, I work with 
local school districts to create solutions that fit them best. 
It became apparent how distant some Federal education policies 
were from the children served. It is important to strike the 
right balance between accountability for public dollars and the 
autonomy essential for private schooling, and that is best 
accomplished at the State level. Based on my experience as 
Texas education commissioner, our State's accountability system 
-- and I would dare say that of other States, would not 
appropriately fit private school enrolling choice program 
participants.
    Having been responsible for ensuring equal access to 
education, and the enforcement of civil rights throughout this 
Nation, I am deeply committed to guaranteeing that all students 
are treated with respect and dignity, and are free from 
discrimination in their learning environment.
    Currently, public students with special needs who are 
eligible for services under the Individuals with Disabilities 
Education Act, have rights to a free and appropriate public 
education, and individual services among others. The special 
needs community has fought extremely hard over the decades to 
guarantee these rights. An American education has certainly 
come a long way. Some choice programs are targeted at providing 
students with disabilities, access to high quality educational 
options. When parents of IDEA-eligible students choose to place 
their child in a private school with the help of a State-funded 
choice program, do IDEA rights follow that child?
    If an IDEA-eligible student's parents have chosen to place 
their child in a private school with a choice scholarship, that 
child is considered a parentally-placed private school student. 
That student has the same IDEA rights as all other parentally-
placed private school students. This is a path parents can 
choose independent from the school district if a private 
school's education program better fits the needs of that IDEA-
eligible child.
    So in conclusion, this is not about private versus public. 
It is not about -- this is about empowering parents with the 
ability to choose among high quality, diverse opportunities to 
fit the unique needs of their children. The vast majority of 
parents will choose their local public school. Private school 
choice provides additional high quality options for parents.
    Thank you.
    [The statement of Mr. Williams follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
     
    Chairman Rokita. Thank you, Mr. Williams.
    Ms. Carter, you are recognized for 5 minutes.

              TESTIMONY OF ALMO J. CARTER, PARENT

    Ms. Carter. Thank you. Good morning also, Chairman Rokita, 
Ranking Member Polis, and Chairwoman Foxx. On behalf of my son, 
Jacob, I am very pleased to be able to speak here, have this 
opportunity for not only Jacob, but all children with 
disabilities. I thank you for this opportunity to speak on the 
issue of school choice and equitable access to quality 
education.
    My name is Almo Carter, and almost 9 years ago, I brought 
home from the hospital a baby boy, who I adopted as a single 
parent. Jacob grew in my heart those 38 weeks before he was 
born in 2008. And I am thrilled to nurture, raise up, and love 
him.
    With my impending return to work fast approaching, I 
selected a wonderful child care center. Immediately following 
placement, I noticed that infants as young as 4 months were 
meeting developmental milestones that Jacob, who was 7 months 
at the time, was barely approaching. Over the next 15 months, a 
series of doctor visits revealed Jacob's underlying diagnosis 
of Fragile X Syndrome, followed by pervasive developmental 
disorder, not otherwise specified.
    During this time, we were introduced to the Strong Start 
D.C. Early Intervention Program. I will stop at nothing to 
ensure that Jacob realizes his full potential, and develops 
into a productive and positively contributing member of 
society. Not every parent has this time, nor the ability and 
wherewithal to do so.
    Shortly after we discovered Jacob's disabilities, I placed 
him at Easter Seals, where Jacob could interact with typically 
developing peers and receive therapeutic services in accordance 
with IDEA. Before Jacob turned 3 years old, we started the 
transition process through early stages. Filled with optimism 
and encouraged by Jacob's prognosis, I wanted to make sure that 
he had -- that I knew what those educational opportunities were 
for him in our community.
    I started with our neighborhood public school, and although 
it had an autism classroom, it was not a placement with which I 
felt comfortable. I also decided to consider some of the high 
performing charter schools, and explore their programming for 
students with disabilities. After attending several charter 
school open houses, I was not convinced that my school choice 
options understood and were equipped to appropriately educate 
Jacob. I ended up applying to a few charter schools through the 
lottery process, but we were unsuccessful in securing a slot.
    With the help of his multidisciplinary team, I placed Jacob 
in the D.C. public schools' Flagship Autism Program, and he 
started public school at age 4. After staffing challenges at 
the school, and changes in Jacob's education requirements as he 
expanded his capacity to learn, we made an immediate change 
through his IEP to a general education classroom where it was 
required he receive specialized instruction, both inside and 
outside the general education setting.
    All schools, whether public, charter, vouchers or virtual, 
must, in my opinion, comply with the same comprehensive 
accountability standards and safeguards in order to be 
equitable. However, right now, only public schools and public 
charter schools are held to these accountability standards and 
safeguards. When evaluating public school choices, it is 
imperative for families to understand the safeguards and 
protections of IDEA and they are given consistent information 
with which to compare and analyze. Each public school choice 
option should be transparent in communication and held 
accountable for their responsibility to educate children. A 
school's number one goal should be the appropriate, effective, 
and successful education of all students, including those with 
disabilities.
    When a violation of IDEA occurs, parents have recourse 
under IDEA to activate their due process rights. In my 
experience, private school choice programs do not provide 
protections and parental rights akin to those that a public 
school system has. In most situations, parents of students with 
disabilities are stripped of their rights when they enter a 
private school with a voucher, if the private school even 
accepts the student with a disability in the first place.
    Candidly, I perceive the risk of private school choice 
options to be too great and not worth the possibility of 
foreclosing Jacob's equitable access to an appropriate quality 
education. For Jacob -- as a mother, I will continue to 
advocate on behalf of my son and other students with 
disabilities to help ensure that they are all afforded 
equitable access to a quality education.
    Thank you for this opportunity.
    [The statement of Ms. Carter follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
     
    Chairman Rokita. Thanks, Ms. Carter.
    Mr. Kubacki, you are recognized for 5 minutes.

      TESTIMONY OF KEVIN KUBACKI, EXECUTIVE DIRECTOR, THE 
                  NEIGHBORHOOD CHARTER NETWORK

    Mr. Kubacki. Chairman Rokita, Ranking Member Polis, and 
members of the subcommittee. My name is Kevin Kubacki, and I am 
the executive director of the Neighborhood Charter Network in 
Indianapolis. Thank you for inviting me to discuss how our 
schools, Enlace Academy and Kindezi Academy, illustrate that 
school choice can transform the lives of children.
    I began this work as a charter school leader because I am, 
first and foremost, a father. I know what it is like to hold 
the hand of each one of my three children on the walk on the 
first day of kindergarten. And I remember vividly hoping that 
the school would see my children the way I see them. That the 
school would recognize their individual strengths and truly 
make them the best versions of themselves. It takes incredible 
trust for a parent to hand over their most precious creation to 
a school. And I believe that schools must honor that trust. As 
a father, I refuse to accept that other parents might not feel 
the same trust in their own school. With a dedicated talented 
and diverse board, and equally diverse and talented staff, we 
launched Enlace Academy in 2013 to give those parents another 
choice.
    Enlace is the founding elementary school for the 
Neighborhood Charter Network's growing family of public charter 
schools in Indianapolis that believes that every child can and 
will learn. The schools located on Indianapolis' west side 
serving families living in the international marketplace 
neighborhood were predominantly English language learners.
    In order to address the specific needs of each and every 
one of our students, we use a personalized, blended learning 
approach paired with intentional character development that is 
rooted in core values: lead with love, embrace uniqueness, 
foster character and ignite imagination, so our children can 
become leaders who choose their own futures in high school, 
college, and beyond.
    Enlace Academy is a grassroots charter school whose name 
``Enlace'' derives from the Spanish word for ``link'' or 
``connection,'' because the school seeks to be the hub of 
community for her families in creating meaningful connections 
with community partners, so that our whole families can be 
healthy and happy. Enlace currently has 365 students, 93 
percent of whom are living in poverty. Nearly two-thirds of our 
students are English language learners, the highest percentage 
of any school in the State of Indiana.
    As a result of our high levels of family engagement and 
commitment, we have created a stable learning environment for 
our students with a 90 percent retention rate, and 96 percent 
attendance rate. Additionally, on the State assessment, our 
gross score of 115 points far exceeded the State average and 
earned us an A rating, which only 24 percent of the schools in 
Indiana received. We have done all of this without having to 
expel students. We truly believe all children can and will 
learn.
    We are proud of the amazing work our dedicated staff and 
students who are committed to achieving excellence each and 
every day. We also believe that our high student achievement 
results from rigorous systems of accountability. As a public 
school, we are held accountable to the State requirements for 
all schools. As a charter school, we are additionally held 
accountable to our authorizer for high academic achievement, 
strong financial health, and ethical governance practices. Most 
importantly, though, we are held accountable to the families we 
serve, because ultimately, if we don't honor the trust they 
place in us, they can choose another school that better meets 
their needs.
    We are excited to be serving families in Indianapolis right 
now because of the strong school choice legislation that 
exists, paired with the collective responsibility for the 
children that is felt by charter schools in Indianapolis public 
schools, our partner district. Enlace Academy is one of the 
first charter schools to partner with IPS as an innovation 
network school. In this symbiotic partnership, we are able to 
access the economies of scale of the district, and utilize the 
district facility, and in exchange, we have the autonomy to 
educate kids in our innovative school model whose State 
assessment scores are counted for the district.
    Furthermore, after seeing success in Enlace Academy, the 
district extended the partnership by allowing us to implement 
our successful practices in restarting one of their most 
academically challenged schools. We launched this in August as 
our second school, Kindezi Academy. The name Kindezi originates 
as an African philosophy that preaches taking collective 
ownership of the education of the children, an apt name given 
the collaborative educational narrative in Indianapolis today.
    While we did receive the charter school's program grant 
funding when launching Enlace Academy, that option was not 
available in Indiana when we launched Kindezi. And it is only 
through the strong partnership we share with IPS that our 
school's open and profoundly changing lives today.
    I am so proud to be managing schools that provide parents 
with options that can meet the unique needs of their children, 
and ensure they reach their potential. Parents, not ZIP Codes, 
get to decide what school meets the specific needs of their 
children. Charter schools provide parents with options for 
their child to access a high-quality education.
    The charter community now numbers more than 3 million 
students, and continues to grow as more parents see the power 
of school choice. I believe offering parents broad school 
choice helps all students to compete and serve and attract 
students to their schools.
    I thank you for the opportunity to speak to you this 
morning and look forward to your questions.
    [The statement of Mr. Kubacki follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Chairman Rokita. Thank you, sir.
    Mrs. Cherry, you're recognized for 5 minutes.

                TESTIMONY OF NINA CHERRY, PARENT

    Mrs. Cherry. Good morning, Chairman Rokita, Ranking Member 
Polis, and Chairwoman Foxx, and distinguished members of the 
subcommittee. It is an honor to be here to share my family's 
school choice story with you. My name is Nina Cherry. I live 
with my husband, Demetrius, and our four children in Tampa, 
Florida. School choice provided my family with the hope and 
stability my children badly needed. And from the school choice 
community, we were welcomed into, I know my family's story is 
not all that unique. For parents, it is not about public school 
versus private schools. We are just looking for schools that 
meet our children's needs.
    My children were thriving in a wonderful A-rated Pasco 
County public school. When my husband's sales commission 
plummeted, we lost our permanent home. Without our home, our 
children were no longer zoned for the public school where they 
learned and thrived. It was an extremely difficult time for us. 
We spent several months couch-surfing as a family of six, 
staying with friends and family until my husband can find a new 
job. As we bounced from school zone to school zone, I decided 
that I didn't want my children's education to suffer because of 
our family's economic struggles.
    I heard about Florida's tax credit scholarship program from 
a friend, and I immediately applied. I was so relieved and 
beyond thrilled when my children were granted the scholarship. 
I began looking into some of Florida's 1,700 private schools 
that enroll tax credit scholarship students. When I toured 
Tampa Bay Christian Academy, I knew everything was going to be 
okay. The scholarship provided by Florida's program enables us 
to send all four of our children to Tampa Bay Christian 
Academy. During that dark time, I was so grateful that 
Demetrius and I could concentrate on getting back on our feet, 
knowing that we found a school that meets our children's needs, 
educationally.
    Florida's tax credit scholarship program was a lifeline for 
our family, and I am so thankful we live in a State that 
provides school choice. Our entire family has felt welcome by 
the school choice community and our school. Tampa Bay Christian 
provides the family environment I wanted for my children, 
especially during this hard time.
    Since my children enrolled in Tampa Bay Christian Academy, 
I have joined the school staff as the administrative assistant. 
I also serve as a senior class adviser and mentor older girls 
at the school. With my employee discount, we pay some tuition 
for each child, but the scholarship makes educating our 
children in the environment that works best for them possible. 
But the scholarship makes educating our children and the 
environment that works best for my children's needs. Our 
children are thriving at Tampa Bay Christian, and all four of 
them are on honor roll. Some people who don't really understand 
school choice programs claim they don't have enough 
accountability.
    For my children's education the primary accountability 
rests with Demetrius and me. If we don't feel that the school 
is serving our kids well, we are empowered to communicate our 
concerns to the school. If we decide another school would meet 
our children needs better, we can move them to that school.
    In Florida, the tax credit scholarship follows a child, 
even if the child transfers during the school year. One of the 
reasons we chose Tampa Bay Christian Academy is because it 
holds my kids to a high expectation, and there is a culture of 
high achievement. Also, Florida tax credit scholarship students 
have to take an annual test. At Tampa Bay Christian Academy, my 
children are assessed annually in math and reading. And the 
teachers can use the test results to help my kids learn more 
throughout the year.
    I know my school choice story is not unique. There are over 
97,000 students using Florida's tax credit scholarships this 
school year. There are over 400,000 students nationwide 
benefiting from private school choice programs, plus millions 
of students benefiting from charter schools, magnet programs, 
and open enrollment.
    I am very supportive of providing a wide range of options 
for families. Children vary in so many ways. Family situations 
change, and students' academic and emotional needs can change 
as well. School choice programs, like the Florida tax credit 
scholarship program, allow parents to find the environment 
where the children will learn best.
    Chairman Rokita, Ranking Member Polis, and distinguished 
members of the subcommittee, I want to thank you once again for 
holding this hearing and communicating to families across the 
country that you are committed to expanding their educational 
opportunities. I hope that sharing my story here will help make 
an impact on other families.
    [The statement of Mrs. Cherry follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rokita. Thank you, Mrs. Cherry.
    We will now entertain member questionings. In the interest 
of accommodating as many members as possible in their 
schedules, I am going to go last in my questioning.
    With that, I will recognize the chairwoman of the full 
committee, Dr. Foxx, for 5 minutes.
    Chairwoman Foxx. Thank you, Chairman Rokita, and I want to 
thank all of our witnesses for being here today. I noted such 
good time management on your part, too.
    Mr. Williams, not everyone knows this, but my first 
experience in public office was on my local school board, and I 
went to public schools. I served for 12 years on the local 
school board. It is always frustrating to me that advocates for 
public education see parental choice across the full range of 
available educational options as such a threat. It seems to me 
that those of us who support greater educational choice need to 
do a better job of explaining our support. We do not oppose 
public education. Your experience makes it clear you do not 
oppose public education. So how can proponents of school choice 
make it clear that support for giving parents more options to 
find the right school for their children does not arise from 
opposition to public education?
    Mr. Williams. Madam Chairwoman, I think what we have to do 
fundamentally is to have a conversation with the American 
people about the value of learning and that parents are 
entitled to make a decision that they believe is in the best 
interest of their children. Children have different interests, 
children have different learning styles. Some parents may want 
a youngster to be imbued with a certain kind of, perhaps, a 
religious experience during their learning. And what you are 
trying to do is match the student with the proper learning 
environment to be able to make sure that youngster can succeed 
in life. And so, public school -- there is a great value to 
public school, I was a State commissioner. But there is also an 
opportunity and a value for a private learning experience as 
well.
    Chairwoman Foxx. Thank you.
    Mr. Kubacki, you state in your testimony that your schools 
have accountability to States, your authorizer, and most 
importantly, to parents. Can you expound on why the 
accountability to parents is the most important aspect of the 
accountability your schools face? And what does that 
accountability look like?
    Mr. Kubacki. Absolutely. We invite the parents to be part 
of our team for educating the child. It goes back to the 
proverb of ``it takes a village'' to educate children. And so 
what we do is we put a lot of work in the front end before we 
open the school, and then continually, as the school is in 
session, to continually invite the parents in. We have monthly 
family events where families can come in and see what has been 
going on in the school. Parents are invited to -- we have an 
open door policy where they are invited to come to the 
classrooms. We connect with the parents to make sure they have 
a clear understanding of the progress of their students, both 
educationally and in their character development. And we see 
them just as our partners. And we know that if we are not 
serving to meet the needs of the parents, that they are going 
to find a school that does meet those needs. And so for us, we 
pay very special attention to what are the unique needs for all 
of the families. And as the name Enlace suggests, we will also 
try to connect those parents to services that they may be able 
to utilize to help make sure that the home environment is 
stable so that the children can come to school ready to learn.
    Chairwoman Foxx. Thank you very much.
    Mrs. Cherry, you said in your testimony that the primary 
accountability rests with you and your husband, Demetrius. You 
are empowered to find the school that best meets your 
children's needs. What reaction do you have when you hear the 
arguments that parents can't be trusted to make the right 
decision for their children?
    Mrs. Cherry. Thank you for the question. I don't believe 
that's true at all. As a parent, we know our children better 
than anybody. We know what needs they have. We know the 
different unique learning styles they have. So it kind of 
saddens me that there's people that think that parents don't 
know what's best for their child. Because for me and my 
husband, we do know what's best for our children.
    Chairwoman Foxx. Thank you, very much. And Ms. Carter, I 
want to say to you thank you so much for being willing to adopt 
your child. I think anyone who adopts a child is to be 
commended, and certainly what you have done to be an advocate 
is to be commended.
    Thank you, Mr. Chairman. I yield back.
    Chairman Rokita. I thank the chairwoman. The ranking member 
is going to employ a bit of the same model that I have on my 
side so with that, I would recognize the ranking member of the 
full committee, Mr. Bobby Scott --
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Rokita. -- for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. First, I would like to 
submit six documents for the record, letters opposing the 
harmful Republican school choice proposals from the National 
PTA, the National School Boards Association, American 
Federation of Teachers, Texas Association of School Boards, 
National Education Association, and finally, a letter signed by 
50 national organizations, including disability advocacy 
organizations and civil rights organizations, all opposing 
private school vouchers.
    Chairman Rokita. Without objection.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Scott. Thank you, Mr. Chairman. One of the challenges 
we have as legislators is making the best use of the taxpayer's 
dollars. We know that we don't have enough money for teacher 
salaries and counselors, after-school programs, reading 
recovery programs, programs we know actually work. We also know 
that research on voucher programs are clear, they do not lead 
to academic benefits for low-income students. Studies on school 
choice programs in Cleveland, Milwaukee, in Washington, D.C., 
found that students in these programs do not perform any better 
than students who do not receive the vouchers. In fact, in both 
in Louisiana and Ohio, students participating in voucher 
programs actually performed notably worse than their public 
school counterparts. So if you have no evidence this is 
actually working, it is a challenge of why we should be 
spending money in that rather than things we know that actually 
work.
    Mr. Williams, in the program -- in the voucher programs 
that you had oversight of, was the number of vouchers infinite 
or were they limited?
    Chairman Rokita. Mr. Williams, why don't you use your 
microphone, please.
    Mr. Williams. As Commissioner of Education in the State of 
Texas, I did not have jurisdiction over private voucher 
programs.
    Mr. Scott. And the programs you are aware of, are the 
vouchers infinite or are they limited?
    Mr. Williams. They are both. I mean -- some of the programs 
are limited, as is, I think, we have --
    Mr. Scott. Then how do you decide who gets a voucher and 
who doesn't get a voucher?
    Mr. Williams. That is going to be decided by the State, by 
the State education agency as it develops its program.
    Mr. Scott. So the choice isn't on the part of the parents, 
the choice is whoever gets to decide who gets a voucher.
    On the programs that you have, have you seen studies that 
show that the number of people in private schools actually go 
up when you have a voucher program?
    Mr. Williams. The number of participants or --
    Mr. Scott. Number of total students in a school system in 
private schools, does the number in private schools go up when 
you have a voucher program, and the number of people in public 
schools go down?
    Mr. Williams. It goes down but slightly. I mean, you think 
about --
    Mr. Scott. Doesn't go down by the number of the people in 
the voucher program. If you have 1,000 vouchers, the number of 
people in public school doesn't go down by a 1,000. Is that 
right?
    Mr. Williams. It does not.
    Mr. Scott. Ok.
    Mr. Williams. And in Texas, it would not because of the 
dramatic increase in terms of enrollment, that we sort of 
enroll about 85,000 new students in Texas schools every year so 
that would not have an adverse impact upon the number of 
youngsters in Texas schools. As I was going to say earlier --
    Mr. Scott. A lot of the vouchers go to people that would 
have been in private school anyway.
    Mr. Williams. It could very -- that could happen, that 
could happen.
    Mr. Scott. Okay.
    Mr. Williams. But it also could go to individuals that 
would not otherwise be in private school.
    Mr. Scott. In fact, two-thirds of the students in Wisconsin 
and half the students in Indiana were already enrolled in 
private schools before they received a voucher.
    On civil rights, people talk about the choice of public 
schools, Mr. Williams. Who gets to choose who gets into a 
school, is it the school or the parent?
    Mr. Williams. Well, it's going to be the parent, going to 
make the determination about which school they wish to go to.
    Mr. Scott. And does the school have to take them?
    Mr. Williams. It depends upon how we established as State 
education administrations, how we establish what the rules of 
eligibility and rules of being able to come into that --
    Mr. Scott. Do any of the rules allow the school to decide 
who gets in and who doesn't get in?
    Mr. Williams. There are certain circumstances under which 
that might occur, yes.
    Mr. Scott. So it's not the parent, it's the school. What 
about disciplinary processes? Does the school get to decide its 
disciplinary processes where they can kick kids out of school?
    Mr. Williams. The rules for discipline will be no different 
whether that youngster is coming to that school with a voucher 
or whether that youngster is coming to school without one.
    Mr. Scott. That's right. The school decides the discipline 
program.
    Mr. Williams. If I --
    Mr. Scott. In IDEA. My time is about to run out. InIDEA -- 
if the school does not want to meet the needs of the student, 
it is the parents' obligation to find a school that does want 
to meet those, rather than everybody has to comply with the 
Individuals with Disabilities Education Act?
    Mr. Williams. Those parents will always have the 
opportunity to return to their home public school. That is 
always there.
    Mr. Scott. The point is that the school does not -- thank 
you, Mr. Chairman -- the school does not have to comply with 
Individuals with Disabilities Education Act, and that's one of 
the problems with many of these vouchers.
    Mr. Williams. I am sure we'll have an opportunity for me to 
discuss that later.
    Chairman Rokita. Mr. Williams, do you want to answer the 
question very briefly?
    Mr. Williams. It has been longstanding for -- at the 
Department of Education, that IDEA does not attend to those 
privately placed students.
    Chairman Rokita. The gentleman's time has expired. The 
gentleman from Indiana, Mr. Messer, is recognized for 5 
minutes.
    Mr. Messer. With all due respect to my friend from 
Virginia, so much information -- so much misinformation and so 
little time. I mean, we as policymakers sometimes make 
uncomplicated things very complicated. The reality is this: we 
work through these policies as a Nation. If we stay focused on 
kids and we stay focused on parents, this all gets really 
simple. Some of the information he put forward -- Mr. Scott put 
forward -- he mentioned the fact that some studies show that 
kids don't improve much in these programs. Firstly, no studies 
show legitimate decline. The fact of the matter is that 
parents' satisfaction in these schools is very high, which is 
another way of saying that the parents that choose to send 
their child to a school feel much better about the life of 
their child.
    Ms. Carter and Mrs. Cherry -- I admire Mr. Williams and 
Kubacki for your leadership and for being here as well. As 
parents, I admire you for coming here and testifying -- Ms. 
Carter, I actually have a nephew who is autistic, and certainly 
empathize with your point that we need to make sure every kid 
in America has the opportunity to go to a great school, and we 
are falling far short of that as a Nation. And what school 
choice is really about is trying to make sure that in an 
imperfect world, we give every kid a chance. And I believe in 
school choice, because I trust America's parents. I trust that 
in the imperfect world we live in, that the best way to figure 
out what is best for a child is to empower a parent. And Ms. 
Cherry, I notice the school that you go to is called Tampa Bay 
Christian, which I would assume has a faith-based component to 
it. Is that -right?
    Mrs. Cherry. Yes, that is correct.
    Mr. Messer. And one of the things I believe that we all 
have to understand in modern America today, that we already 
have school choice if you can afford it. If you can afford to 
move, if you are in a ZIP Code that has a failing school or if 
you can afford to pay for another private school option, you 
have that choice. Would you be able to send your child to a 
faith-based private school without this program?
    Mrs. Cherry. Absolutely not.
    Mr. Messer. Are you finding that, I would think, an 
important element of your education experience for your 
children?
    Mrs. Cherry. Yes. The Step-Up for Students Scholarship and 
Tampa Bay Christian Academy have been an anchor for my family.
    Mr. Messer. I think, again, when we focus on parents and we 
focus on families, we just remember why shouldn't everybody 
have that chance? I don't know that we are ever going to come 
up with a program that is perfect. We sure weren't perfect 
before we started trying to find these alternative solutions. 
But we had parents in many places in America today, let's own 
it, there's a million people on charter school wait lists 
around America, parents who want the chance to send the child 
somewhere else and can't because they can't afford to do it. 
And it's wrong, and it's long past time that we do something 
about it in America.
    Now Mr. Williams, I would love to give you an opportunity 
to respond to some of Mr. Scott's comments, but elaborate a 
little bit on these -- I thought you mentioned at the very 
beginning, but elaborate a little on this idea that when a 
parent chooses to go to a school, a private school, that they 
should be treated like everyone else at that school, but to try 
to turn every school in America into one uniform bland model, I 
think, wouldn't provide better opportunities for our kids.
    Mr. Williams. If I could, I would respond to two things: 
Number one is that a parent is making a fundamental choice, and 
I would go back to what Ranking Member Polis said at the 
beginning, obviously, it is extremely important for them to 
have adequate information.
    Mr. Messer. Yes.
    Mr. Williams. And it is extremely important for them to be 
able to make a knowing and intelligent decision. If we provide 
them with that information, and some parents -- and they do it 
today -- some parents make the decision to take their kid out 
of a public school, and take that youngster with a disability 
to a private school today, because private schools today are 
indeed educating youngsters with disabilities. And they do it 
understanding that fate is not available to them. They do it 
understanding that they won't have an IEP, but they say there 
is something else at that school that -- that is why I want my 
youngster there. Every parent won't make that decision. And 
that is the beauty of what you are deciding, what you are 
working on. Every parent won't make that decision, but some 
parents do and some parents will.
    The other thing is, as I mentioned in my opening remarks, 
there are 31, I think, there is an indication -- 31 of 33 
empirical studies found that choice did improve student 
outcomes. While I was the commissioner in Texas and not 
Louisiana, and not fully conversant in the Louisiana study, I 
realized that was a snapshot in time, that was a study at the 
beginning of that program, and we expect it to get better 
results and better scores as it goes along.
    Chairman Rokita. The gentleman's time has expired. The 
gentleman from Colorado, Ranking Member Polis, is recognized 
for 5 minutes.
    Mr. Polis. Thank you, Chairman Rokita. You know, I want to 
point out as we debate this, that over 90 percent of the 
students in this country go to public schools of some form, so 
we are obviously spending a lot of time debating that other 8 
or 9 percent, but 90 percent of students go to public schools, 
including magnet schools, and neighborhood schools, and charter 
schools, and alternative schools, and from all those and many 
more, there are all sorts of models of public schools from the 
Montessori Sot, to rigorous college prep, to experiential, to 
arts-focused. So, you know, it would be nice for the committee 
to spend at least 90 percent of our time focusing about some of 
the things that are occurring on the public side, as Mr. 
Kubacki runs a public school, I'm sure can attest to as well.
    I want to hone down on something that Mr. Williams said 
along the same lines that Mr. Scott asked. I want to give Mr. 
Williams the opportunity to clarify a statement he made. His 
words, I fear, might have been a bit misleading with regards to 
those who are unfamiliar with requirements of the IDEA, because 
it gets very technical and very legalistic.
    Mr. Williams, in your testimony, you stated that if a 
public school district has made FAPE, Free Appropriate Public 
Education, available to an IDEA-eligible student, and the 
student's parents have, instead, chosen to place their child in 
a private school with a State-funded private school choice 
scholarship, that child is considered a parentally placed 
private school student. That's what you mentioned.
    And you also said that student would then have the same 
IDEA rights as all other IDEA-eligible, parentally placed 
private school students. So I want to hone down on that and I 
want to be clear about which IDEA rights parentally placed 
private school students enjoy.
    Parentally placed private school students give up their 
right to a free and appropriate public education, which we call 
FAPE and related services, an obligation to provide the 
services under Federal law. So parents who use a State-funded 
private school voucher give up their right to FAPE, meaning the 
school district is not required to pay for FAPE, including 
things like private placements. And the private school, then, 
is not required by law to provide any particular special 
education-related service that would meet the requirements of 
FAPE, like speech therapy, or assistive technology, or whatever 
that might be, so long as the student remains in that private 
school.
    The only exception to this would be limited child fine 
services, perhaps an evaluation to determine IDEA eligibility 
if the evaluation had not been conducted previously. But 
Federal IDEA funds, and the right to Free Appropriate Public 
Education and individual services that come with an IEP, do not 
follow parentally placed students to private schools. Only when 
an IEP team determines a private school as the best placement, 
that's a placement through the school district mechanism, and I 
will remind you that parents are part of the IEP team, only 
then do full IDEA funding, and more importantly, rights, follow 
the student to the private school.
    So, Mr. Williams, when a student participates in a State-
funded private school voucher program, does he or she maintain 
the right to FAPE?
    Mr. Williams. She does not.
    Mr. Polis. Thank you. I just wanted to clarify that.
    Chairman Rokita. For the record, Mr. Williams, she does 
not. Can you use your microphone?
    Mr. Williams. She does not.
    Mr. Polis. I also wanted to quote one other aspect of your 
testimony back to you. You mentioned, quote, ``I am deeply 
committed to guaranteeing that all students are treated with 
respect and dignity, and are free from discrimination of their 
learning environment.'' How can you make that assurance of 
schools that don't allow gay or lesbian students to attend, and 
to the parents of those gay and lesbian students?
    Mr. Williams. I think, first of all, it goes back to what 
the other protections afforded to those students under current 
Federal law, and I would suggest to you that whatever the 
current the Federal law provides those youngsters, those 
youngsters would be entitled to.
    Mr. Polis. And I would point out to my colleagues, we would 
welcome their support to extend the protections of Federal law 
on the basis of sexual orientation and gender identity. And I 
welcome my friends on the other side of the aisle to join me 
and Mr. Cicilline in support of the Equality Act, which would 
do just that.
    Ms. Carter, in your testimony, you talked about your own 
extensive search to find the right school for your son. And you 
mentioned you considered many kinds of public schools, public 
charter schools, and other district-run schools. The National 
Center for Special Education in Charter Schools is taking steps 
to help advocate for students with disabilities in charters. 
There is a number of processes around helping parents make the 
right decision for their child, and in your testimony, you 
spoke about applying for a charter, but not being selected in 
the lottery system.
    Can you share more about your own decision-making process? 
And why you personally value school choice and the opportunity 
to consider multiple schools? And I understand your child is 
not in the neighborhood school, but is in the school that you 
found to be most appropriate for your child and with the best 
program. So if you could talk about how your process for 
finding the best public school for your child in 20 or 30 
seconds, that would be great, and you can submit more later.
    Ms. Carter. Thank you, excuse me, member Polis. Yes, we -- 
my experience is based on professional and personal advocacy. 
And in that context, it is about research, investigating what 
is available. And so, it's important to be able to understand 
what I am comparing. So I look to the accountability standards 
that are in place. I chose to stay in the public arena simply 
because ``A,'' my child has disabilities, as well as the fact 
that I am a taxpayer, and I am a public school recipient, so I 
support public education. And--
    Chairman Rokita. The gentleman's time has expired. I'm 
sorry.
    Ms. Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and 
ranking member, for holding this hearing about school choice. 
Here is an example of some excellent school choices in the 
district I am honored to represent. The Beaverton School 
District has -- in northwest Oregon, has a really diverse 
student body, more than 100 languages, spoken in student homes. 
There's an international IB school, a magnet schools focusing 
on environmental sciences and health careers, science and 
technology program, an arts and communication magnet, which is 
where my own daughter went to school. Two of the district 
public schools have STEAM-focused curriculum. They have two 
districts reported charter schools with language immersion 
programs in Spanish and Chinese. There is a community high 
school, an early college high school with an optional 
partnership with the community college, and an open enrollment 
process for students in neighboring districts.
    Families in Beaverton district have considerable choice and 
don't have to sign away their rights to Federal civil rights 
protections, or give up transparency or student achievement 
when they make that choice. I wanted to mention, when I 
listened to the testimony, parents across this country want a 
school for their children that has high expectations, like Ms. 
Cherry mentioned. And they want a school that recognizes your 
student's individual strengths, like Mr. Kubacki mentioned. 
These are qualities are not exclusive to private or religious 
or charter schools.
    There are great private schools in the district I 
represent, they are not taking tax dollars from public schools. 
And as policymakers, our focus should be on making sure that 
all schools have the resources and the support they need to 
maintain those qualities, and I know that the chairman, in his 
opening remarks, said parents don't want their children trapped 
in a failing school. Now people have different definitions of 
what failing school means, schools are buildings, maybe they 
are schools where many children are having more challenges. And 
we as policymakers should be saying, we don't want any failing 
schools. So that should be our focus to make sure that all 
students have opportunities.
    I wanted to ask you, Ms. Carter, students of color, 
students with disabilities, LBGTQ students like Mr. Polis was 
talking about, are really disproportionately affected by 
suspensions and expulsions. Of course, we don't know the data 
for voucher programs, because private schools are not required 
to publicly report that information. So should public dollars 
be used to fund schools that can discriminate against students? 
And what safeguards do we need to make sure your son receives a 
high-quality education as a student who has rights under the 
IDEA?
    Ms. Carter. Yes, thank you. First of all, no. No school 
should be able to discriminate. We do have laws in place, and 
when you are not in a position where you can have access to 
laws that protect parents and students with disabilities, or 
different students' rights, then--that--therein lies a problem. 
And so with IDEA, there are those protections; the FAPE, Free 
Appropriate Public Education; there's also, in the least 
restrictive environment, so that we don't have students 
educated in segregated classrooms which are called self-
contained classrooms.
    And we also have the notion of due process, where we have 
access to the law, where we have an opportunity to be heard and 
given that notice with respect to what the rights are.
    Ms. Bonamici. Thank you. And I want to ask Mr. Williams a 
question before my time expires. But thank you, thank you very 
much. Mr. Williams, your testimony didn't discuss the 
challenges of school choice programs in rural Texas. I 
represent a lot of rural Oregon, and it is not surprising that 
rural districts in Texas are some of the strongest opponents of 
the proposal in Texas to shift public education funding to 
education savings accounts, because rural communities often 
have just a single school. It is the community hub that has 
been serving the student's parents and grandparents, and it's 
where people gather and there is no other school in that town, 
or even in a close proximity, so small-town school systems 
don't have the economies of scale.
    So can you explain to my constituents in Oregon's rural 
areas why they should give up needed funding to a handful of 
private schools that aren't near their community, especially 
when these private choice programs have an unproven academic 
outcomes, and do not serve all students?
    Mr. Williams. I will start initially, because it is going 
to give those families more choices to acquire the learning 
that they need for their youngster. We have been having this 
conversation in Texas and elsewhere, as if it's the only thing 
we are talking about, is moving a youngster from one building, 
Thomas Jefferson, to another building, perhaps St. Thomas 
Aquinas. But in rural Texas, and we haven't won this argument 
yet, but in rural Texas, with that education savings account, 
perhaps they can buy Mandarin Chinese from a distance learner -
- distance provider; maybe they can provide -- acquire some 
kind of math skill because you can't get a master math teacher 
in ``Scatback,'' Texas, maybe you can buy that from --
    Ms. Bonamici. My time is about to expire. I appreciate 
that. But we just got our graduation rates back and our online 
high school had very embarrassing, pathetic graduation rates of 
28 percent.
    Chairman Rokita. The gentlewoman's current time has 
expired.
    Ms. Bonamici. Thank you. I yield back.
    Chairman Rokita. The gentleman from Virginia, Mr. Brat, is 
recognized for 5 minutes.
    Mr. Brat. Thank you, Chairman. To the panel and Mr. 
Williams, I'll ask the question. I am an educator. I taught 
Randolph-Macon College down the road a couple of hours for 18 
years, economics and ethics. Went to seminary and then did a 
Ph.D. in economics, so I am a confused person. So I just got 
back from the prayer breakfast. Very nice, bipartisan, across-
the-aisle stuff. We get along more than the press gives us 
credit. And so, this can be a contested issue, right? I mean, 
we have differences in strategy, but one of the things I saw--I 
taught freshmen--coming into my classroom all the time. And I 
think one of the things some of us on this side of the aisle 
consider is just kind of the one-size-fits-all nature sometimes 
of education. And my public schools are top in the country. So 
my kids both got excellent education. But nationwide, we are 
now competing with the rest of the world. We all want the kids 
to excel, right?
    So you can look at the Ps and test scores. I ran 
regressions on too much of that stuff for too many years, and I 
won't go into all the details. But the point is we have got 
kids that don't know what a business is after they graduate 
from high school. They don't know a price from a cost from a 
profit. They can't define any of it. Right. And then the kids 
get to go to college, that's great. But the kids that don't go 
to college, they don't know what business is, and they are 
going to work.
    So I think we have huge work to do, whatever solutions we 
all agree on. And then I taught ethics and went to seminary, et 
cetera, and there is no such thing as just ethics. Right? There 
is the Aristotelian school of ethics, or Kantian ethics, or 
Christian ethics, or Confucian ethics. Right? There is no 
ethics. And what system of ethics are we teaching in K-12? 
None. The kids come to college, they don't know one system of 
ethics, they can't name one theologian philosopher, et cetera. 
So that's why some on this side of the aisle, we just want to 
see some variety when it comes to the curriculum -- the 
monopoly model -- it is hard to crack up monopolies, right, in 
economics, or monopoly in politics, or monopoly in any business 
that doesn't produce the best outcomes.
    So we just want to see some variety. And Bobby and I are in 
Virginia, we have a tremendous Achievable Dream school that is 
in the inner city, and has just done unbelievable job, charter 
school, public charter, and they do phenomenal. Right? The kids 
are introduced, they walk and meet the police officers, at the 
beginning of the day, they have stock market gains, they learn 
about business, they got a tennis program, all the kids go to 
college and it's phenomenal. And so, we all are trying to find 
that for all of our kids. And then getting to my question, 
right, the political tensions are high. Right after the 
election, everyone's bombing each other on Facebook right now, 
and the tone's not good.
    So I am trying to keep the tone good. And so, one of the 
questions I get back home from constituents that have major 
concerns are, we have some of the best public schools in the 
country in my area, but we all want to see kids in the poorer 
areas, and the inner cities have some choice.
    I think that is part of the issue that is on people's minds 
right now. But then the question from constituents is ``Well, 
won't the school choice movement pull funding from public 
schools?'' What would you say to those suburban moms and dads 
who are concerned and have anxiety that if we move towards 
choice, that money won't come from their public schools? What 
is the variety of funding options available that would ease 
some of the anxiety out there?
    Mr. Williams. Well, depending on how you design it, let us 
keep in mind that most of the school choice plans that I have 
seen, that whatever the per capita spending amount is, the 
voucher, or whatever that is, is less than that, and so there 
is still going to be sort of the delta that is available for 
the public schools, and that body is no longer in that school. 
And so, you are not having to be concerned about that piece, 
because you don't have to educate the child, and some dollars 
are still get to remain with the public school.
    But I think more importantly, what we ought to be doing, I 
mean, to my left are three parents that have children with 
three different sets of needs. And we should be creating 
opportunities for all of those needs to be satisfied in a 
public school, public learning environment, and that includes 
private schools, because everybody can't -- everybody doesn't 
do the same thing. I mean, all these schools aren't designed to 
do the same thing. We ought to put parents in the best position 
to find the school that meets the needs of their child.
    Mr. Brat. That's great. Thank you. I have about 30 seconds. 
I'll just kind of add, I teach economics, and in economics, you 
try to maximize utility. And so, there -- everyone is going to 
debate across the aisle what are the test scores and 
comparisons, and they'll say they are not that great, we will 
say they are great. Even if we compromise and say, let's say 
they are dead even, it seems to me it's kind of analogous to 
working for a firm. Sometimes you just want to go to work for 
that firm instead of that firm. Right? There is a tone at the 
top, you like the CEO, the principal, you like the vice 
principal. Your kid may be socially stigmatized at one school, 
they feel better going to another school, et cetera. And so 
that is my impetus for the school choice option, is I think the 
kids do need some variety, parents need some variety. I worked 
for several years at the State level --
    Chairman Rokita. The gentleman's time has expired. The 
gentlelady from California, Ms. Davis, is recognized for 5 
minutes.
    Mr. Brat. Thank you, Chairman. Thank you very much for 
coming in today.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman. And thank 
you to all of you for being here. We know it is a great effort 
to do that. Ms. Carter, I wanted to ask you a little bit more 
about your experience, I know we have had to cut you off. Just 
-- you had to really navigate a very complex school system as 
you branched out and looked at everything. Could you talk about 
one or two instances where you were testing the transparency of 
the system itself, and access to information for a parent, any 
parent, but particularly a parent who was interested in the 
policies that have been enacted at the Federal level for IDEA 
over the years? How did you learn that? How did you actually 
get a handle on that?
    Ms. Carter. It was challenging.
    Mrs. Davis. As a former school board member, I understand 
that, so --
    Ms. Carter. So it really is searching for opportunities. 
When I look at my child, and for him, it is about equitable 
access to a high quality, excellent education. And so, it is 
understanding who the players are, kind of learning about -- 
being clear on what my child's needs are, and then searching 
for those opportunities that can best meet my child's needs.
    Mrs. Davis. Did you have a sense that the school did a good 
job in making sure that they had data -- they had backup 
information, so they could even describe to you how services 
for, say, another child, not by name, but just generally, how 
they really demonstrated that they were doing what you were 
hoping they would do?
    Ms. Carter. The short answer is no. It's about having -- 
getting access to information. And admittedly, I am a parent 
who has time, who has information available to me, so it still 
is a pushing, pushing, pushing from the school. And so one of 
the things that I focus on is trying to expose and make 
available, not just to Jacob, but to all students, and 
particularly those with disabilities, asking questions, 
pushing. So it is not something that just happened.
    Mrs. Davis. I wanted to just let you know, because I am 
concerned about this, and I think others are as well. There was 
a recent development last evening where my colleagues actually 
filed the need to move forward to take away some of the 
important protections that children have, which would basically 
say to States, you don't have to file -- follow really any 
guidelines in tracing the improvement, and tracing the 
performance of young people in schools. Would that concern you 
that perhaps we're moving away from that, so that States might 
really be doing this very differently? If you were to move, for 
example, you might move to a State that had decided they 
weren't going to follow up with--
    Ms. Carter. That would be a--
    Ms. Davis. Understanding how we disaggregate data, whether 
children of color, whether children who -- where we must adhere 
to IDEA would be followed?
    Ms. Carter. No. Accountability is key. And so something 
like that, if that didn't exist, then there wouldn't be a way 
to even measure whether or not there is equitable access, or 
even a high-quality education. So these regulations are 
critical as it relates to a high quality education --
    Mrs. Davis. Yeah. Could I ask the rest of you? Would that 
be your concern, or do you think it is important that States 
have guidelines to follow, to be sure that they're -- making 
sure that all children are receiving a high-quality education? 
We disaggregate that data and we know what is going on?
    Mr. Williams. I think it is important for us as States to 
have some guidance. But I will be honest with you, in many 
areas, let's say academic accountability, some of us were there 
before the national government was, and I think some of us were 
designing assessments and accountability regimes beforehand. 
Obviously, No Child Left Behind was birthed somewhere else and 
came here. So in some of these matters, I think the States are 
in very good stead to be able to protect our citizens, and do 
so in a way, that is quite laudatory. But there was no doubt 
that having the participation, and maybe even the leadership 
and the guidance of the national government would be helpful at 
times.
    Mrs. Davis. Anybody else want to comment on that?
    Thank you, thank you, Mr. Chairman.
    Chairman Rokita. I thank the gentlelady for yielding. The 
gentleman from Arizona, Mr. Grijalva, is recognized for 5 
minutes.
    Mr. Grijalva. Thank you, Mr. Chairman. Like Ms. Davis, my 
colleague, I served on a school board back home in Tucson for 
12 years, and I think my question kind of goes to another part 
of this whole discussion, it is a discussion of how much of the 
Federal dollar, public dollar that goes to public education is 
going to be diverted or sent a different direction in terms of 
vouchers, for profits, private.
    In that position, we had to deal with mandated issues like 
IDEA, mandated, and necessary, by the way. Civil rights 
protections, equal access for all children, Title IX so that 
boys and girls got the same opportunities at all levels, and 
English learners.
    Laws that controlled what we did, open meeting laws, 
financial disclosure in terms of the budget and the audits 
attended to that particular school district, and the list goes 
on. And the public scrutiny that had to be there in order for a 
school district to be functional.
    My question is, as we go forward, there are two standards 
that seem to appear: there is the standard on public education 
in terms of the points I just outlined plus more, and a kind of 
nebulous standard as to what we do for private, for-profit 
charters that is different. Is there -- and I will ask Mr. 
Kubacki and Mr. Williams for a response -- don't you feel that 
the reaction to, I think, the proposition that many of us have, 
that people should play by the same rules, that if on the 
governance of a private for-profit; that there should be 
transparency, there should be rules that apply to the 
financials; there should be disclosure of salaries; there 
should be academic disclosures; and the list goes on, and that 
all children coming need to be taken in, given the mandates 
that the public schools have. Do you feel that would -- do you 
think that is fair to set the same playing field for everybody 
-- Mr. Williams, Mr. Kubacki, either one.
    Mr. Williams. I think that is a fair aspirational goal, but 
I do not believe that is the law you established here. The law 
you established here first of all you haven't exercised 
jurisdiction over private schools generally, and here you have 
exercised jurisdiction in title VI and title IX--
    Mr. Grijalva. Yeah but--
    Mr. Williams. And IDEA as relates to --
    Mr. Grijalva. But Mr. Williams, we are talking about 
extending that jurisdiction, you know, if we are talking about 
the increased prominence of private schools in terms of the 
support they are going to get from the Federal Government in 
terms of money. Should requirements follow the money or should 
it be open-ended?
    Mr. Williams. The recipient of those dollars is not that 
private school. The recipient of that dollar is the mother, or 
the father, the parent, the guardian, and you haven't exercised 
jurisdiction over that individual.
    Mr. Grijalva. And as you said, the final arbiter, the 
ultimate is the empowerment of that parent, okay. And--but as a 
balance, as a check and balance, shouldn't some requirements, 
at the minimum, financial disclosure be required? Investment 
strategies, open meetings? So we know when these schools meet 
and who is governing them? And what decisions they are making-
at the very minimum shouldn't that be a public acknowledgment 
as opposed to an individual parent acknowledgement? We are not 
eliminating that parent's choice, we are just saying the rest 
of us that are helping pay the bill should know what is going 
on.
    Mr. Williams. You want to have--sort of get to the right 
balance between those issues. But I think we have got to be 
real careful about treating that private school as if it is a 
public school. So is there--
    Mr. Grijalva. Given what the nominee for Secretary of 
Education and her opposition to any reasonable regulation for 
charter schools or for-profit schools, is there a Federal role 
in insuring that taxpayer funds are not being abused? Is there?
    Mr. Williams. That is a conversation for you to have here, 
and there will be some role, of course. The question is how 
much of a role, and how do we reach the right balance of 
allowing that private school to function and to adequately 
serve those youngsters that come to it.
    Mr. Grijalva. Thank you. And I am broaching that 
conversation. I appreciate it.
    Yield back.
    Chairman Rokita. The gentleman yields back.
    The gentleman from Virginia, Mr. Garrett's, recognized for 
5 minutes.
    Mr. Garrett. Thank you, Mr. Chairman.
    So I think the metric that matters here isn't what day of 
the week these schools meet, it's not how long they meet. The 
metric is student success, right? And so, ultimately, I want to 
introduce myself to this committee and this subcommittee, and 
I'll tell you that I believe in the nature versus nurture 
argument, in nurture. I believe in nurture. I believe that no 
child, regardless of their national origin, regardless of their 
skin color, regardless of their parents' socioeconomic status 
or educational attainment, is more able to succeed or fail than 
another, but that if the child is placed in a circumstance 
where the child can succeed and encouraged and given 
appropriate instruction, that the child will in all likelihood 
succeed.
    And I believe that there is a fundamental entitlement that 
Americans can expect, one fundamental entitlement, and that is 
opportunity. And I see children being left behind every single 
day by virtue of circumstances beyond their control, and that 
is a ZIP Code; that's a parent who loves their child no 
differently than I love my own, but who doesn't have the 
financial wherewithal to place themselves in the circumstance 
where they can assure their children the best educational 
opportunity.
    And we had this fight again and again during my time in the 
State legislature, and there, one party said, look, we have 
really good public schools except for where we don't, and we 
need to ensure that the young people in those areas also have 
an opportunity. Are the children failing those schools? No. The 
schools are failing the children. I understand there's a 
plethora of inputs: socioeconomic status, educational 
attainment of parents, et cetera, et cetera, so forth and so 
on. But if we know to a metaphysical certainty that in one ZIP 
Code schools are failing, then shouldn't we change how we do 
business?
    So I would, Mr. Chairman, direct my questions at this 
juncture to Ms. Cherry.
    Ms. Cherry, you were, in fact -- your children were in 
public school in Pasco County.
    Mrs. Cherry. Yes, sir.
    Mr. Garrett. And you were happy, very happy with the 
outcomes that your children were seeing in Pasco County, your 
husband Demetrius and yourself?
    Mrs. Cherry. That is correct.
    Mr. Garrett. And we've heard conjecture that people might 
flee public schools if these opportunities are made available, 
but you only left those public schools in Pasco County after 
financial calamity, beyond your control, struck your family. Am 
I correct?
    Mrs. Cherry. That is correct.
    Mr. Garrett. Okay. You would have remained in those schools 
with which you were happy.
    Mrs. Cherry. That is correct.
    Mr. Garrett. And so had Florida not had a system wherein, I 
believe, what, 79,000 young people received scholarship 
opportunities, your children would be in school where?
    Mrs. Cherry. I'm not sure, because when it was time to 
enroll, we didn't have a permanent address, so I'm really not 
sure.
    Mr. Garrett. But, ultimately, you ended up at Tampa Bay 
Christian.
    Mrs. Cherry. Correct.
    Mr. Garrett. Do you feel that the educational opportunities 
afforded to your -- was it three or four children?
    Mrs. Cherry. There's four.
    Mr. Garrett. -- four children at Tampa Bay Christian are 
sufficient for them to be able to live successful lives here in 
the United States of America?
    Mrs. Cherry. Yes, definitely.
    Mr. Garrett. Okay. And this was made possible because 
somebody in Florida decided to break from the status quo and 
think outside the box.
    Mrs. Cherry. Yes, sir.
    Mr. Garrett. Okay. And so if somebody hadn't, can you say 
with any certainty whatsoever that your children would be 
receiving what I would argue they're entitled to, which is the 
opportunity provided by a solid education?
    Mrs. Cherry. I couldn't say that.
    Mr. Garrett. Okay. Thank you.
    And -- I talk too fast. Mr. Williams, I would move my 
questioning to you. Ultimately, we look a lot at per-pupil 
expenditures. And what I've seen from the studies that I've 
reviewed in my previous legislative experience, a much smaller 
format, was that the per-pupil expenditure does not decrease 
commensurate to the number of individuals who leave a school. 
In essence that, if we're funding a particular school to the 
tune of $12,000 per pupil and a pupil leaves, that only a 
percentage of that funding leaves with that pupil. Is that 
accurate?
    Mr. Williams. That is true. The only thing that changes is 
the number of students that the school has.
    Mr. Garrett. So, but, if the average per-pupil expenditure 
is $12,000, then let's say that $6,000 follows the student, the 
money follows the child, then that leaves a surplus at the 
school from whence the child came, in most instances. Is that 
correct?
    Mr. Williams. Correct.
    Mr. Garrett. And so, ultimately, now what we have is, if 
resources are the question, a greater number of resources per 
pupil as that child is subtracted from the total number of 
children in the school.
    Mr. Williams. Quite possible.
    Mr. Garrett. And so, if you could help me, because I'm 
completely missing something here, what would the argument 
against having a greater per-pupil resource base at what had -- 
some parent might have identified as a school not providing 
their child an opportunity, what would the argument against 
that greater per-pupil resource base be? I'm missing it.
    Mr. Williams. I can't help you much with that. What I think 
it's just simply a fundamental philosophical difference in 
allowing folks to move to private schools.
    Mr. Garrett. And so, Mr. Chairman, I've got about 15 
seconds. Ultimately, though, I'd ask Mr. Kubacki, and I 
apologize if I'm pronouncing your name wrong, should the goal 
not be that every child receives the education they need to 
have the potential to succeed in this Nation?
    Mr. Kubacki. Yes.
    Mr. Garrett. Thank you.
    Chairman Rokita. Wonderful. Yes or no question. The 
gentleman's time's expired. I thank the gentleman.
    My friend, the former ranking member of the subcommittee, 
Mrs. Fudge, you're recognized for 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman. And I thank 
you all so much for being here today.
    Let me just make two comments, the one that my colleague 
just made about he couldn't understand why people are concerned 
about a student leaving if they retain a certain amount of the 
money. It's just basic math. Schools are based upon the number 
of kids they project are going to be there. So you still have 
to pay all the bills, you have to pay all the teachers. If you 
lose a student, it makes a difference.
    And as well, Mr. Chairman, I think maybe there comes a 
point where we need to raise our hands up here too about 
telling the truth. My colleague, Mr. Messer, made a blanket 
statement about our ranking member saying that he was not 
correct, but, in fact, Mr. Messer had no basis in fact for 
making the statement.
    Let me just be clear with you. I'm from the State of Ohio. 
We have an EdChoice voucher program. A study by the voucher 
people indicated last year that students who participated in 
that program did considerably worse than similar students in 
the public schools. So, in fact, there is indeed a legitimate 
decline in achievement in some of these programs. So I just 
wanted to make clear to Mr. Messer that , in fact, is the case.
    Ms. Carter, school voucher proponents do not believe that 
private K-12 schools receiving publicly-funded vouchers should 
follow the same rules as public recipients of federal funding. 
For example, the nominee for education secretary, Ms. DeVos, 
refused to say that all schools receiving federal aid should be 
held to the same accountability standards, including IDEA, 
which I don't think she even knew what it was.
    Could you elaborate on your assertion that all schools 
should be held to the same accountability standards and 
safeguards?
    Ms. Carter. Yes. Thank you. So with respect to the same 
standards, that accountability and transparency is something 
that can also be measured. And the standardization of that 
allows for families to make an informed choice, because choice 
is a good thing, but it's about having an informed choice so 
that you know that your child has an equitable access to that 
high-quality education. So targeted professional development, 
training of all the teachers and educators that are going to be 
working with students is critical to have that equity, if you 
will, and to have a measure that supports the delivery of a 
high quality education.
    In addition to that, noting that it's an individualized 
notion, it's based on the needs of that individual student, and 
when you have standardization as it relates to transparency and 
accountability, those safeguards, then again, you have 
something with which to measure, to compare, and analyze.
    Ms. Fudge. Thank you. To you as well, Ms. Carter. We've 
repeatedly heard that the argument that private school choice 
programs provide parents with the opportunity to select the 
best school for their children. When describing your search for 
quality education options, you stated, the panoply of choice, 
this is your words, was narrowed and, in fact, not a viable 
choice for your son. Please explain how your choices were 
limited in your search because of his disability.
    Ms. Carter. Yes. So with respect to a high quality 
education, what's important for Jacob was the fact that 
teachers, again, were trained, they had an understanding of 
what his disabilities are, what the requirements are, and 
that's what IDEA does under FAPE and least restrictive 
environment. So I had confidence that I had an understanding, 
but I also had something with which to measure whether or not 
the particular choices had that.
    And when you're looking at private placements, and not 
through the public school system, but private placements, they 
don't have anything near what would be appropriate for Jacob in 
terms of providing those related services that he needs, the 
specialized instruction that he needs.
    And so, again, our focus was on the public system, because 
there are safeguards in place whereby I can go and see and 
count on there being accountability associated with what those 
services are.
    Ms. Fudge. Thank you very much.
    And I would just say to this committee, I am not an 
opponent of charter schools, I am not an opponent of vouchers; 
I am a proponent of public schools. Ninety-plus percent of the 
children I represent go to public schools. So I need to be sure 
that someone is looking out for the 90-plus percent as well as 
the 8 to 10 percent.
    And with that, Mr. Chairman, I would yield back.
    Chairman Rokita. The gentlelady yields back.
    Ms. Adams from North Carolina, you're recognized for 5 
minutes.
    Ms. Adams. Thank you, Chairman Rokita and Ranking Member 
Polis, for allowing me to visit this subcommittee. I do want to 
thank our panelists for their testimonies.
    And like many of you, the importance of education is 
personal to me. I'm a parent, grandparent, I'm also an educator 
by training. Forty years, four decades I spent as a professor 
at Bennett College in North Carolina preparing students, many 
of whom have gone on to be teachers across the country. So -- 
and it's clear that from the nomination of Betsy DeVos for 
Secretary of Education that it appears that the administration 
intends to push a private school choice agenda that will, I 
believe, undermine public education.
    Having said that, Ms. Carter, I want to thank you for 
sharing your experience with us today. Fifty million students 
who make up, as has just been said, 90 percent of America's 
school children attend public schools. All of my children and 
grandchildren attended public schools. And so the choice 
taxpayer funds that would otherwise go to public schools 
serving the vast majority of our students, it diverts them to 
private schools.
    Ms. Carter, you spoke about your strong sense of duty and 
advocacy on behalf of your son, Jacob. Can you speak a little 
bit to the amount of time that it took to navigate the school 
system, how your journey might have been impacted if you knew 
you had a high quality public school in your neighborhood?
    Ms. Carter. Yes. If there was a high quality school in my 
neighborhood, it certainly would have relieved some of the 
anxiety and stress that has gone into the process. And at least 
it's something that would be accessible, and, again, not just 
to Jacob, but what's available in the community, that 
individualized notion that has a place, a centralized place 
where Jacob has a chance, a real chance to be successful and to 
have access to that high quality education.
    Ms. Adams. Okay. The Every Student Succeeds Act requires 
States to develop and implement challenging academic standards 
to ensure that students are career ready or college prepared, 
standards that apply to all students, except for students with 
the most significant cognitive abilities who are assessed on 
the easier alternate assessment. Private schools such as those 
used in many voucher programs are not required to abide by 
ESSA. They do not have to set standards, assess students to 
ensure that they're college and career ready, or provide 
information about academic achievement to parents.
    Ms. Carter, you mentioned that your son is included in the 
general education classroom with peers of his same age. How 
important is it for students with disabilities to be held to 
these standards, and can you describe how this has helped Jacob 
to be successful in school?
    Ms. Carter. Yes. First of all, high expectations, those 
standards that are in place -- I have high expectations of 
Jacob. I think we as parents all have high expectations of our 
children to be successful. And communicating those high 
expectations is critical, because when you set the tone and you 
-- school systems understand that not only are parents taking 
their responsibility seriously, but it's the fact that you are 
helping to promote those high quality standards.
    Jacob is going to college, and it's a particular thing that 
I spend a lot of energy speaking to all the schools, the 
administrators, the educators, kind of that same thing. Jacob 
is going to college. And as a result of that, I have to make 
sure that he is appropriately prepared to be successful in 
college.
    Ms. Adams. Thank you.
    Mrs. Cherry, did anyone inform you of your right under 
Federal law to keep your kids enrolled in their home school 
when your family experienced homelessness?
    Mrs. Cherry. I actually went to the school and told them 
that I was moving. So I had to -- I was actually told that I 
was zoned out of the school. There's a process that you had to 
go through to get back in, but with the time -- I didn't have 
time to do that, so that's why I had to choose.
    Ms. Adams. So were you informed, though, that you could 
have kept --
    Mrs. Cherry. No, I was not. They never told me that.
    Ms. Adams. Well, that's the problem. I think parents do not 
have the necessary information that they need.
    I just wanted to quickly ask Mr. Williams, you know, you 
pointed out that many voucher programs don't test at all, 
others use tests differently. How are you able to approve the 
impact on student achievement and hold schools accountable?
    Mr. Williams. I think what you could do here is to direct 
us as the SEAs that design accountability programs that would 
require some level of testing. And I think most private schools 
would be more than happy to use our basic test or use their ACT 
or SAT for high schoolers.
    What I said in my opening remarks is that our 
accountability system that we use today, and I think that of 
the other 49 states, would not neatly fit on top of private 
schools. That, I would discourage us to do, is to say that the 
exact accountability system that I have now for my public 
schools and traditional charters, that we apply that directly 
to the private schools.
    Ms. Adams. Thank you, sir. I'm out of time.
    Chairman Rokita. The gentleman's time has expires. I thank 
the gentlelady.
    Mr. Takano, you're recognized for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Betsy DeVos, the nominee for Secretary of Education has 
advocated for a lack of oversight and regulation in Michigan's 
charter school law. As a result, it has 33 for-profit 
organizations that run 79 percent of the State's charter 
schools. Detroit, overwhelmed by bad choices for children, 
produced the worst math and reading results among all U.S. 
cities.
    In my own district, I have a constituent, Sarah Vigrass, 
who works for California Virtual Academies, managed by K12 
Incorporated, a for-profit education company supported by Ms. 
DeVos and her family. In her 10 years there, Sarah has seen 
firsthand the decline in amount and quality of materials and 
high teacher turnover rates driven by K12 Incorporated, 
maximizing their profits and not investing in students.
    My question is for Ms. Carter. Ms. Carter, do you believe 
for-profit entities can serve their bottom line as well as 
their students effectively?
    Ms. Carter. No, I do not.
    Mr. Takano. And why was a for-profit charter school not the 
best option for your son?
    Ms. Carter. As it relates to Jacob, because he has 
disabilities, it's about individual needs, what his needs are. 
And in inquiring these for-profit entities, I discovered that 
they could not tell me what they were going to be able to do to 
support what his needs are. And the fact that there aren't 
standards or there's no accountability as it relates to what 
children with disabilities need, and all children, for that 
matter, that didn't make me comfortable.
    Mr. Takano. Well, it's interesting that the -- I think we 
have a public interest in making sure that schools, this idea 
of competition and accountability that exists among schools, 
but we're not the -- we're totally leaving that out of the 
picture in terms of Federal money being used for these schools.
    The Department of Education collects extensive data on 
public schools, including achievement, enrollment, discipline, 
bullying, harassment, and special education information. These 
data collection procedures provide transparency to stakeholders 
and allow for the Department and State educational agencies to 
intervene, if necessary, to reduce and prevent discriminatory 
practices. Private schools are not required to report the same 
information, even if they accept vouchers in most States.
    Ms. Carter, in your testimony, you said you researched and 
became very informed about public school choice options in D.C. 
Do you feel the transparency of schools about their academic 
outcomes, discipline practices, and special educational 
services are important in determining the best education for 
your son?
    Ms. Carter. Yes, I do. And I do because diversity is 
critical, diversity in terms of what kinds of students are made 
up in the environment, as well as the opportunity for all 
children to succeed. Inclusion is critically important. And so 
knowing that information is a part of the process of 
determining whether or not this particular school choice is 
what would be best for my child.
    Mr. Takano. In your opinion, what other information is 
critical in ensuring your son receives a high quality 
education?
    Ms. Carter. Knowing the background and the training and the 
credentials associated with the educators who are going to be 
providing that kind of support and services to my child; in 
addition to the related services, speech, occupational therapy, 
physical therapy, those kinds of related services that my child 
needs; knowing what those credentials are so that I can 
evaluate whether or not I feel that this is a good choice for 
my child to be successful.
    Mr. Takano. And you're telling me that information wasn't 
always available to you?
    Ms. Carter. Not in a for-profit environment, no.
    Mr. Takano. That's interesting.
    Mr. Williams, it's come to light that several Trump 
appointees to serve in leadership roles at the U.S. Department 
of Education have a history of expressing bigoted comments. 
These appointees have made blatantly racist, Islamophobic, 
transphobic, and homophobic remarks.
    Now, as the former head of the Office of Civil Rights at 
the Education Department, is it appropriate to have individuals 
like this at the helm of ensuring educational equity and 
nondiscrimination based on race, religion, and sexual 
orientation?
    Mr. Williams. Mr. Takano, without accepting the beginning 
of your question that they have indeed made such comments, let 
me go to what I think is the thrust.
    Mr. Takano. I'm just asking you, sir --
    Mr. Williams. Let me go to the thrust.
    Mr. Takano. No, no. These appointees have also -- look, is 
it appropriate for anyone who's made blatant racist, 
Islamophobic, transphobic, and homophobic remarks to serve in 
these capacities, whose job it is to ensure that there's 
educational equity and nondiscrimination? Would you -- would 
you countenance --
    Mr. Williams. I would love to have an opportunity to answer 
the question.
    Mr. Takano. Sure.
    Chairman Rokita. The gentleman's time has expired.
    Mr. Allen, you're recognized for 5 minutes.
    Mr. Allen. Yes. Thank you, Mr. Chairman, and thank you for 
having this hearing today.
    The best example that I know of school choice is a school 
that we developed in my district called Heritage Academy. And 
that school is there for those single parents who can't afford 
to send their children to a private school. And through some 
tax initiatives in the State, business people are able to 
support these children. Now we're up to 200 students. And I 
attended an assembly there over the holidays, and I have not 
seen the energy to learn and to develop musical skills and 
athletic skills and reading skills, I've not seen that anywhere 
in any school that I think I've ever visited.
    And so, again, these are single parents who -- and 
unfortunately, there is a huge demand for this school that we 
can't meet. I mean, it's -- we're topped out at 200. In many 
cases, these kids are actually told that they really don't 
belong in the public school system, and the parents don't have 
a choice. So that is a tremendous success story and why I 
believe that the American people, just like health care, they 
want choice. I mean, don't mandate and don't waste my 
taxpayers' money, you know.
    And so, with that, Mr. Williams, what is your reaction to 
the anti-school choice advocates who argue that we should not 
give families more choice, because too few of the students can 
benefit, and then argue for and actively pursue barriers to 
expand those benefits to more students?
    Mr. Williams. Well, I'm saddened by it, quite frankly, 
because what we ought to be doing, as I've said before, is that 
we should be doing our best to find in a way that we can match 
youngsters and their particular needs. And youngsters have a 
variety of different needs. With our 5.2 million youngsters in 
Texas, I'm not going to say we have 5.2 different kinds of 
needs, but we've got a wide variety of them. And what we should 
be trying to do is to put parents and guardians in the position 
to match needs with schools. Kids are very, very different. And 
the public schools in Texas, I think, do an outstanding job of 
trying to satisfy the needs of those youngsters, but that 
doesn't mean there's not another place in the private school 
community for us to satisfy those needs as well. There's enough 
room and there's enough demand, there's enough challenge for 
both traditional public schools and charters and private 
schools to be present to provide opportunity for our students.
    And going back to something that was asked of me earlier, 
you know, at the end of the day, we haven't seen -- in terms of 
school choice programs around the country, we haven't seen exit 
rates, you know, greater than 8, 9, 10 percent. At the end of 
the day, I would still have almost 5 million kids in Texas 
public schools. And so we have to be focused on enhancing 
public schools while we give parents and guardians the 
opportunity that, if they don't want or choose -- want to make 
a decision for their kids not to go to a traditional public 
school, to find a school that meets that kid's needs somewhere 
else.
    Mr. Allen. And thank you so much for that response. In 
fact, we have a public school, inner city school system in my 
district in Lawrence County in the city of Dublin where they 
have a STEM school and also kind of an economic school in the 
two elementary schools. And parents were there at 5 o'clock in 
the morning on a Saturday morning to sign their kids up for one 
school or the other. That's what I'm talking about. That 
motivates and that is school choice, and it's wonderful.
    I have just a short period of time. Mr. Kuback -- Kuback --
    Mr. Kubacki. Kubacki.
    Mr. Allen. Kuback. Okay. The purpose of school choice is to 
provide parents the opportunity to find the right educational 
environment for their child. Do you believe charter schools are 
the only way to help parents find the right place?
    Mr. Kubacki. No.
    Mr. Allen. Isn't it important to have a variety of options 
for parents to choose from where they're searching for the 
right replacement?
    Mr. Kubacki. Yes.
    Mr. Allen. What are some things that can be done to ensure 
parents have access to the choices they want?
    Mr. Kubacki. One of the really effective things that we've 
started in Indianapolis is our Enroll Indy program, where it is 
-- it's an open enrollment program for parents to be able to, 
they have one place where they can go, they can see the variety 
of options that are available to them. It's one application for 
them to fill out. And it makes it a little bit more of an 
equitable process for all parents to be able to see their 
options and choose in an intelligent way.
    Mr. Allen. Thank you. I yield back.
    Chairman Rokita. Mr. Courtney, you're recognized for 5 
minutes.
    Mr. Courtney. Thank you, Mr. Chairman, for letting me visit 
for a few minutes here.
    And, you know, again, we all have great stories to tell, 
the States that we come from. I come from Connecticut, and I 
just visited a Blue Ribbon school a couple of weeks ago, which 
is an old-fashioned red brick public school with a, you know, 
the locally enrolled kids that are there. It also happens to be 
a population that is kids whose parents work at the Groton Navy 
base. It's the oldest submarine base in our Nation.
    And when you talk about challenges, these are kids whose 
parents are -- whose fathers largely, but now women are coming 
on as part of the submarine force, are deployed and, you know, 
very transitory, in and out. I mean, that is a challenge for 
the school. But with all of the requirements to honor IDEA, you 
know, all the anti-bullying, all the other accountability 
measures, they are still just hitting it out of the ballpark in 
terms of scores, in terms of math and reading, and has, again, 
been recognized nationally in terms of -- so, you know, I think 
it's really -- there's a narrative out there that, you know, 
public schools are hopeless.
    And, you know, visiting that school, you know, a week or so 
ago after they got the Blue Ribbon designation, I mean, the 
fact of the matter is that good leadership, teamwork, involving 
parents, you know, there are public schools that are doing an 
outstanding job out there, and, you know, that's, you know, 
where the 90 percent of kids are enrolled these days.
    Also in Connecticut, since the court ruling came out, Sheff 
v. O'Neill, we've employed a magnet school approach to try and 
break down racial isolation, because, as Ms. Carter eloquently 
stated, you know, trying to, you know, have kids learn in a 
more diverse classroom is, I think, something that the Supreme 
Court recognized in Brown v. Education, and I think most 
thoughtful educators agree is a positive goal.
    The charter school track record in terms of that issue of 
racial isolation, frankly, is just far inferior to the magnet 
school experience. The city of New London, which is one of the 
most distressed municipalities in the State of Connecticut now, 
is all magnet, and they're drawing kids in from communities 
outside of the city limits. They have, again, focuses, because 
we're upgrading the submarine force, we're hiring now in terms 
of the STEM curriculum, and that with the magnet focus, they 
are actually opening doors to both diversity and quality and a 
connection to workforce needs that is, I think, you know, one 
of the models for how we sort of move forward as a Nation, but 
we don't do it by throwing out accountability. These magnet 
schools are public budgets that have to, again, pass muster 
through all of the process that the boards of education have to 
do with their schools, unlike vouchers, which are basically 
just disconnected from accountability.
    And, Mr. Chairman, I just wanted to add to the record an 
article which, again, describes the magnet school experience in 
the State of Connecticut, I ask unanimous consent to have it 
entered.
    Chairman Rokita. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Courtney. And, again, just the New York Times actually 
did an analysis of Connecticut's experience with magnet 
school's policy a couple of decades ago compared to the charter 
school experience in the city of New York. And what they found 
is that the goal of diversity has been, again, far more 
successful with the magnet school approach, again, with no 
cherry-picking in terms of what kids can go there.
    My daughter went to one of these. It was a life-changing 
experience for her in terms of just having the opportunity to 
interact with kids from different walks of life that would not 
have happened in, you know, in a charter necessarily or the 
local public school. And, again, there's just no question in 
terms of where the value is as far as achieving those goals.
    So it's not a binary choice here. It is not vouchers versus 
public schools. And, frankly, I am still a believer that we can 
improve education for kids through the old-fashioned way, like 
the Charles Barnum School in Groton, Connecticut, and that we 
can also have a publicly accountable system of attracting kids 
from more diverse backgrounds without just basically throwing 
money up in the air and hoping it lands in the right place.
    And with that, I yield back.
    Chairman Rokita. I thank the gentleman.
    I'm going to recognize myself for 5 minutes to ask some 
questions. Again, I appreciate hearing from the witnesses.
    I want to start with you, Mr. Williams. Your testimony 
talks about the changing behavior of public schools once there 
was competition, for lack of a better word, I guess. And it's 
been my observation, you know, I've probably been to 100 
schools throughout the country, public, private, good, bad, 
everything in between, but it would also be my observation, 
because competition is part of human nature, you know, 
competition works in politics, competition works on a 
basketball court, competition works in nearly every facet of 
our life, yet we heard this morning from some of the 
questioners that they would seem to be desperately afraid of 
competition.
    When you said behavior was changed or the performance of 
neighborhood public schools changed, can you give me some 
specifics about what you're talking about?
    Mr. Williams. I think in many ways imitation is the highest 
form of flattery. What we have seen -- in my experience from 
both as commissioner as well as the president of a Catholic 
school board, what we've noticed is that the public schools, 
let's say, around us at our Mother of Mercy, the public schools 
around us, they started extending the hour, the school hour, 
because we started extending the school hour and getting better 
results. We started having a different kind of parent-teacher 
meeting with our parents where we were giving them more and 
more information about how well their youngsters were doing and 
what we were going to plan for them in the next session or next 
semester, and our public schools around us began doing that.
    What we see sort of statewide is that we see the offerings 
of public schools expand. You now have a charter school, quite 
frankly, which is a public school, the charter school now 
offering Mandarin Chinese. And now we see other public schools 
who are trying to do similar things because they realize that's 
what parents really -- some parents really want that.
    So in terms of offerings, in terms of how the school 
relates to the parents, in terms of sort of how the school 
operates day by day in terms of perhaps its hours, perhaps what 
it does on the weekends, those kinds of things I've seen that -
-
    Chairman Rokita. Have you noticed increased performance of 
the neighborhood public school since the introduction of --
    Mr. Williams. In that one, I cannot say that the 
performance of the --
    Chairman Rokita. You can't --
    Mr. Williams. -- surrounding the public schools and the 
doughnut around it increased significantly. In large part, I 
can't say that. At that time, I was not commissioner and I did 
not have access to their scores.
    Chairman Rokita. Yeah. So you just don't know? It's not 
that it didn't happen?
    Mr. Williams. Right.
    Chairman Rokita. Thank you, Mr. Williams.
    Now, Mr. Kubacki, your testimony is slightly different, not 
necessarily contradictory, but different in the sense that you 
rely heavily on your relationship with the public school, local 
public school district, in order to claim rightfully your 
success. Critics of school choice, you know, talk about -- they 
don't use the word ``competition,'' they would use a term like, 
quote, ``pitted against,'' unquote.
    What do you think of the concept of competition as it 
relates to your work and your relationship with the public 
school system?
    Mr. Kubacki. So I don't see it as an either/or choice. I 
see that we collaborate with the public schools and are able to 
actually work with them to bring our model into even some of 
their own most academically challenged schools. I think if you 
look at the environment around Enlace when we first started, 
the schools that were around that neighborhood, it was kind of 
hit or miss whether or not it was a good school. Now, 4 years 
into it, all the schools around us have increased. I wouldn't 
be so bold as to suggest that we were the only driver behind 
that, but I would say that because we've been there and are a 
good neighbor, we do collaborate with the schools around us, we 
do share best practices. I think it just has helped with the 
general academic environment of the neighborhood.
    Chairman Rokita. Okay. Thank you. I'm sticking with you, 
Mr. Kubacki, your testimony discussed your second school, in 
Kindezi school, opened because the district came to you to 
restart one of their failing schools. You said that happened 
because of the partnership your school had with the district 
schools. Expound on that partnership just a little bit.
    Mr. Kubacki. Sure. So in Indianapolis, we have legislation 
that allows the district to work with 501(c)(3)s to partner in 
what's called the Innovation Network Schools. And so it's 
symbiotic in that we have access to some of the district 
resources, the most important being facility, and the district 
then gets our accountability scores as well. So it's a payoff, 
and it's granted an added layer of accountability for our 
schools, because we are also accountable to our contract with 
the district, but I think it lends towards that idea of we 
share the collective responsibility for all of the children. 
And if something's working really well in a charter school, 
then it's something that would be worth bringing into the 
public school district.
    Chairman Rokita. Thank you. And I have questions for the 
other two witnesses as well, but I'd be hypocritical if I let 
myself go on, because, as you can see, we're now 14 seconds 
over time. So I want to thank the witnesses again for their 
testimony.
    And I want to recognize the ranking member for his closing 
remarks.
    Mr. Polis. Well, thank you. I want to thank our witnesses, 
and I join Chairman Rokita in that. I want to thank our members 
on both sides of the aisle who joined us. Based on attendance, 
it's clearly a topic that's important.
    Mr. Allen did reference people who are anti-school choice. 
I haven't heard anybody on this panel, Democrat or Republican, 
who voiced anything other than support for the concept of 
school choice and letting parents choose, but, of course, all 
school choice is not created equal, and distinctions need to be 
made. And my Republican colleagues have oversimplified what 
school choice means, even to the point of parents signing away 
their rights.
    There's certainly a difference between public school choice 
and the privatization of education, and we should not lose 
sight, as Ms. Fudge said, that over 90 percent of students in 
our country are served by public schools. Many of us support 
policies that increase choice for high quality public schools, 
policies like open enrollment, magnet schools, that Mr. 
Courtney mentioned, charter schools, and others. Ms. Carter 
eloquently shared her own personal story, of her process for 
finding the right school to meet her son's needs.
    When it comes to education, a one-size-fits-all policy 
simply doesn't work, and choice is important. Ms. Carter did 
extensive research and exercised her choice after meeting with 
a number of schools, traditional public and charter, and 
decided what was best for her son.
    That being said, Ms. Carter spoke about some of the 
challenges she faced choosing the right school, and that's the 
case for many parents. School systems aren't often transparent 
enough about options, transportation remains a barrier to 
making school choice meaningful, and that's why it's important 
that we lift up and support all of our public school options. 
It's also why many of us find some of the options that 
Republicans have put on the table for private school choice 
troubling.
    In her confirmation hearing, Donald Trump's nominee for 
Secretary of Education, Betsy DeVos, refused to say that she 
wouldn't take money away from public schools to pay for private 
vouchers. That should concern any of us who care about public 
schools and the 90-plus percent of students that they serve.
    Today's hearing also brought to light what Republican 
school choice means for students' Federal civil rights 
protections. Private schools are often not subject to 
requirements under Title VI, Title IX, IDEA, ADA, and ESSA. In 
fact, many parents are forced to sign away their rights under 
IDEA. I want to be clear on this. We had some clarifying 
questions, but the law is clear. Under U.S. Department of 
Education guidance, it clearly states that parentally-placed 
private school children, and that's in contrast to private 
placement students under IDEA, have no individual entitlements 
to a fair and appropriate public education. Using the private 
vouchers, which is called parentally-placed private school 
child, does not have those rights, and, in fact, signs them 
away.
    With your permission, Mr. Chairman, I'd like to submit some 
2001 guidance, under President Bush's Secretary of Education, 
on this issue.
    Chairman Rokita. Without objection.
    [The information follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
     
    Mr. Polis. And just to quote in part this memo from March 
30, 2001, it's still enforced, ``under IDEA, ``such parentally-
placed private school students with disabilities have no 
individual entitlement to a free appropriate public education, 
including special education-related services in connection with 
those placements.''
    So, again, it's not about who the provider is. There are 
many private providers that through private school placement 
under IDEA, the parents maintain those full rights. And I would 
add those aren't always private schools; they're often private 
services that are contracted by the school district. They can 
be, in extreme cases, an entire school, even a boarding school 
in another State. And I've heard of that in some cases, if 
that's the only appropriate education, but the parents maintain 
those rights. And under this advisory and the law, they lose 
those rights when they become parentally placed. And so that's 
very important to emphasize.
    Private schools can also deny admission to students with 
special needs and students who identify as LGBT. And for many 
of those reasons, we should be concerned about Federal taxpayer 
dollars supporting institutions that are allowed to 
discriminate.
    I'm a strong supporter of school choice, but not the school 
privatization proposed by my Republican colleagues. Independent 
schools are independent for a reason. They want to remain 
independent, and that's perfectly appropriate and a fine 
decision that they make. If they want to play by the same rules 
as public schools and accept students without discrimination 
and without parents signing away their IDEA rights, there's 
common ground to find a way to work together. And many school 
districts do contract with private providers in their district 
under those terms and conditions.
    My first and foremost priority is supporting the education 
of students across our country, and we want to make sure that 
we encourage rather than discourage transparency and 
accountability, as well as promote civil rights for all schools 
that are publicly funded.
    I yield back the balance of my time.
    Chairman Rokita. I thank the gentleman.
    In closing, I'd like to respond to the gentleman by 
submitting some -- also submitting some records -- or excuse, 
some documents for the record, some of -- at least one of 
which, I noticed, is the same one he referenced. So I'd ask 
unanimous consent to enter into the record a study from the 
National Alliance for Public Charter Schools on the estimated 
enrollment in charter public schools for the 2016-2017 school 
year, and letters from the Department of Education from 1990, 
2001, and from the Obama administration in 2012, each of them 
confirming that parents who choose for their child to attend a 
private school, including as part of a public scholarship 
program, are making a choice, in fact, making a choice that 
school is the right fit for their child, as allowed under IDEA 
and any of our other civil rights laws.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
    Chairman Rokita. So, again, when parents have a choice, I 
truly believe every kid has a chance, and that's what this 
hearing is about. It was said earlier in this hearing that we 
tend, up here and in the Federal Government, generally to 
overcomplicate things.
    Ms. Carter, I believe you can make the best choice for your 
child, as you did, just as Kathy and I can make a great choice 
for our Teddy and his little brother Ryan. Teddy, by the way, 
has Angelman syndrome, which is a sister syndrome to what your 
boy has. So please know, I walk in your shoes on a lot of this 
stuff, but I truly believe that we can decide for Teddy what is 
best for him and have the options. And I also understand how 
difficult it is to get information sometimes. And if I had time 
to question Ms. Cherry, I'd ask how she found out the 
information in more detail, because I think that is very 
important. When parents have a choice, kids have a chance.
    So this discussion is going to continue. We're emboldened 
with the opportunity of having a partner in the White House and 
the Department of Education who can see that same value 
proposition and could help us direct more funds, so that 
parents do have that choice.
    Seeing no other business before the committee, we'll stand 
adjourned. Thank you.
    [Additional submission by Mr. Rokita follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    [Questions submitted for the record and their responses 
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
 
    
    
    [Mrs. Cherry's response to questions submitted for the 
record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 12:14 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
